<html>
<title> - [H.A.S.C. No. 111-126]NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2011 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED ELEVENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]






                                     

                         [H.A.S.C. No. 111-126]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2011

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON
 
             BUDGET REQUEST FROM THE DEPARTMENT OF THE ARMY

                               __________

                              HEARING HELD

                           FEBRUARY 25, 2010

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13




                  U.S. GOVERNMENT PRINTING OFFICE
58-172                  WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="82e5f2edc2e1f7f1f6eae7eef2ace1edefac">[email&#160;protected]</a>  
                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                     One Hundred Eleventh Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          HOWARD P. ``BUCK'' McKEON, 
SOLOMON P. ORTIZ, Texas                  California
GENE TAYLOR, Mississippi             ROSCOE G. BARTLETT, Maryland
NEIL ABERCROMBIE, Hawaii             MAC THORNBERRY, Texas
SILVESTRE REYES, Texas               WALTER B. JONES, North Carolina
VIC SNYDER, Arkansas                 W. TODD AKIN, Missouri
ADAM SMITH, Washington               J. RANDY FORBES, Virginia
LORETTA SANCHEZ, California          JEFF MILLER, Florida
MIKE McINTYRE, North Carolina        JOE WILSON, South Carolina
ROBERT A. BRADY, Pennsylvania        FRANK A. LoBIONDO, New Jersey
ROBERT ANDREWS, New Jersey           ROB BISHOP, Utah
SUSAN A. DAVIS, California           MICHAEL TURNER, Ohio
JAMES R. LANGEVIN, Rhode Island      JOHN KLINE, Minnesota
RICK LARSEN, Washington              MIKE ROGERS, Alabama
JIM COOPER, Tennessee                TRENT FRANKS, Arizona
JIM MARSHALL, Georgia                BILL SHUSTER, Pennsylvania
MADELEINE Z. BORDALLO, Guam          CATHY McMORRIS RODGERS, Washington
BRAD ELLSWORTH, Indiana              K. MICHAEL CONAWAY, Texas
PATRICK J. MURPHY, Pennsylvania      DOUG LAMBORN, Colorado
HANK JOHNSON, Georgia                ROB WITTMAN, Virginia
CAROL SHEA-PORTER, New Hampshire     MARY FALLIN, Oklahoma
JOE COURTNEY, Connecticut            DUNCAN HUNTER, California
DAVID LOEBSACK, Iowa                 JOHN C. FLEMING, Louisiana
JOE SESTAK, Pennsylvania             MIKE COFFMAN, Colorado
GABRIELLE GIFFORDS, Arizona          THOMAS J. ROONEY, Florida
NIKI TSONGAS, Massachusetts          TODD RUSSELL PLATTS, Pennsylvania
GLENN NYE, Virginia
CHELLIE PINGREE, Maine
LARRY KISSELL, North Carolina
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
ERIC J.J. MASSA, New York
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
WILLIAM L. OWENS, New York
DAN BOREN, Oklahoma

                    Erin C. Conaton, Staff Director
                 Mark Lewis, Professional Staff Member
                 John Wason, Professional Staff Member
                    Caterina Dutto, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Thursday, February 25, 2010, Fiscal Year 2011 National Defense 
  Authorization Act--Budget Request from the Department of the 
  Army...........................................................     1

Appendix:

Thursday, February 25, 2010......................................    47
                              ----------                              

                      THURSDAY, FEBRUARY 25, 2010
  FISCAL YEAR 2011 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
                    FROM THE DEPARTMENT OF THE ARMY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Ranking Member, Committee on Armed Services........     3
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Casey, Gen. George W., Jr., USA, Chief of Staff, U.S. Army.......     9
McHugh, Hon. John M., Secretary of the Army......................     5

                                APPENDIX

Prepared Statements:

    McHugh, Hon. John M., joint with Gen. George W. Casey, Jr....    51

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [The information was not available at the time of printing.]

Questions Submitted by Members Post Hearing:

    Mr. Ellsworth................................................   126
    Ms. Giffords.................................................   127
    Mr. Jones....................................................   121
    Mrs. McMorris Rodgers........................................   126
    Mr. Miller...................................................   121
    Ms. Tsongas..................................................   128
    Mr. Turner...................................................   125
    Mr. Wilson...................................................   123
  FISCAL YEAR 2011 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
                    FROM THE DEPARTMENT OF THE ARMY

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                       Washington, DC, Thursday, February 25, 2010.
    The committee met, pursuant to call, at 10:05 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good morning.
    Today the House Armed Services Committee meets to receive 
testimony on the fiscal year 2011 budget request of the United 
States Army.
    Our witnesses are the Honorable John McHugh, Secretary of 
the Army, and this is his maiden voyage on that side of the 
table, and John, we welcome you.
    [Applause.]
    The Chairman. Needless to say, we are very, very proud of 
you, and you are off to a great start leading the Army.
    Secretary McHugh. Chairman, can I just say--I have been 
here a lot, and this is the first time we have ever started 
with a round of applause. It won't last long. [Laughter.]
    The Chairman. Your day is coming.
    We have with us the Army Chief of Staff General George 
Casey, and we thank him for his outstanding leadership, as 
well.
    We appreciate and express gratitude to those that you lead. 
Active duty, Reserve, National Guard, as well as the civilian 
members of your team. We are grateful for what they do for our 
country.
    The wars in Afghanistan and Iraq continue to drive at a 
relentless tempo, although we hope to see some relief soon. The 
pace is not slacking.
    To support the level of activity, the Administration has 
requested a $2.5 billion increase over last year's base budget 
level for the Army. This would support a 1.4 percent across-
the-board military and civilian pay raise and support the 
Army's continued focus on providing support to military 
families, and that is so very important.
    I am pleased to see the continued and sustained attention 
paid to the well-being of our soldiers as well as to their 
families.
    The Army expects to enter fiscal year 2011 with an end 
strength of 562,400 with a potential growth to 570,000 to 
compensate for the wounded warriors and other soldiers who are 
not presently deployable. This will ensure units that are being 
deployed of 100 percent being filled.
    If all goes well, the number of soldiers deployed in Iraq 
recedes and Afghanistan maintains a steady state, I hope the 
Army will be able to provide units with a reasonable amount of 
dwell time, and we will discuss that during our questions. 
Between deployments, dwell time is important as it gives time 
to recover and to train to a full range of tasks required of 
them, something I fear we have neglected in.
    We will like to hear, General, if we have had several 
discussions over the full spectrum of training, and I hope you 
would touch on that in your testimony today.
    I remain concerned that the temporary increase in end 
strength is not enough to solve the problem. We saw this before 
when the Army began its temporary growth back in 2005. In the 
end, we made that temporary growth permanent.
    With regard to the Army's readiness levels, I am deeply 
troubled by what I see. While units deployed overseas are, for 
the most part, properly equipped, manned, trained, this 
deployment readiness has come at the expense of the rest of the 
Army.
    Despite billions in additional funding provided by 
Congress, these elements of the U.S. Army that are not deployed 
overseas remain woefully unprepared should another conflict 
arise on short notice.
    I have mentioned before that since I have been in Congress, 
since 1977, we have had 12 military conflicts, none of which 
were foreseeable. And that is, hopefully, not the future for 
us, but we must be prepared for it.
    The Nation is assuming a great deal of risk, while ensuring 
the Army should eventually be able to deploy the required 
forces, I worry that it may take so long to do so that critical 
national objectives in future conflict may not be achieved, or 
can only be achieved at a much higher human and financial cost.
    Just as important, I am concerned that the Army's 
unreadiness for another conflict reduces our strategic 
deterrence. Any leader considering a conflict with the United 
States must be assured of a swift and decisive response. Yet, 
in terms of land and combat power, I fear that a response may 
not, today, be what we expect or require.
    So, let me be clear that my concerns do not lie in the area 
of the professionalism or the skill or the devotion of duty of 
our Army. Those qualities have never wavered in 235 years, and 
they are not wavering now.
    However, troops, no matter how experienced and dedicated, 
must be properly equipped, must be properly trained, in order 
to carry out the mission. Improvisation can only take a 
military unit so far.
    I do not raise this issue to level criticism at anyone. I 
raise the issue because I want to understand what more can be 
done to reduce the risk that our Nation faces.
    Before I turn to the ranking member, I wish to speak about 
a valued friend, a great Member of Congress, one who will be 
leaving us very shortly to pursue another position of 
responsibility. Today is the last full committee hearing for 
one of our most long-standing and acting members, the gentleman 
from Hawaii, Congressman Neil Abercrombie.
    And, I wanted to express, on behalf of all us, to our 
valued friend, Neil, for serving Hawaii, for serving our 
country for more than 19 years in this House of 
Representatives, on our committee, the House Armed Services 
Committee, Neil's hallmark has been making sure our troops have 
the equipment they need to protect our country and keep it 
safe.
    And he has been an outstanding member of the committee, an 
exceptional chairman, and a leader in the Air and Land Forces 
Subcommittee.
    I am really proud of what he has done. His leadership 
helped prompt the Pentagon to speed up the delivery of life-
saving body armor and the MRAP [mine resistant ambush 
protected] vehicles to our forces who are on the front line.
    I have been honored to serve with Neil, and I will greatly 
miss his wise counsel, his good humor, and his loyal friendship 
most of all, and I know that Congressman Abercrombie will 
continue to be a forceful and effective advocate on behalf of 
Hawaii's needs. And I ask my colleagues to join me in thanking 
Neil for his service, and wishing him the very best in the days 
ahead.
    [Applause.]
    The Chairman. With that, we ask our ranking member, Buck 
McKeon, for his comments this morning.
    Buck.

 STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A REPRESENTATIVE 
  FROM CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McKeon. Thank you, Mr. Chairman.
    Secretary McHugh, General Casey, thank you for being here. 
We are very fortunate to have you serving our country and 
leading the great men and women in our U.S. Army.
    Secretary McHugh, we came to Congress together in 1992. I 
appreciate you moving to that seat so I could take this seat. I 
hope you enjoyed the view there, as much as you enjoyed it 
here.
    We are, all of us on this committee, very proud of you and 
the job you are doing, and your new job there with the Army. I 
know you have been a champion of the Army your whole career and 
probably in the state senate before you came here, so, glad to 
see you carrying on that proud tradition of the Army there.
    General Casey, as you commented, you are also no stranger 
to this committee. A special thanks to you for your continued 
public service.
    I recall that it was in 2007 when you first informed this 
committee that the Army was out of balance. You stated that 
balance is a state of continual readiness to provide strategic 
flexibility and depth, while sustaining the all-volunteer force 
and simultaneously meeting the current and future demands of 
the national security strategy in an area of persistent 
conflict. I will look forward to hearing from you in regards to 
how the Army is doing, in terms of rebalancing in both the 
short-term and the long-term.
    You may have heard that a different kind of balance was 
discussed during our hearing with the Secretary of Defense and 
the Chairman of the Joint Chiefs of Staff a couple of weeks 
ago. I commended the Department for its laser focus on the wars 
in Iraq and Afghanistan, but I believe the Secretary of 
Defense's efforts to make balance a fixture in the QDR 
[Quadrennial Defense Review] and the out-year budget is short-
sighted, and puts the Department on the wrong path for the next 
20 years.
    Choosing to win in Iraq and Afghanistan should not mean 
that our country must also choose to assume additional risks in 
the conventional national defense challenges of today and 
tomorrow.
    The Secretary admitted during the hearing that for the 
period from now until 2015, I believe that we can live within 
the numbers that we have been given and that our forecast for 
us without sacrificing force structure, but beyond that time, 
the Defense Department cannot sustain the current force 
structure without real growth on an annual basis to somewhere 
between 2 percent and 3 percent.
    Don't get me wrong. For the Army, there are many good 
things in this budget. This budget request allocates $3.2 
billion for the Army's revamp Brigade Combat Team modernization 
program, and provides $6 billion for Army aviation.
    The addition of two aviation brigades is long overdue, and 
I hope the Army is successful with its efforts to go forward 
with the ground combat vehicle program. However, I am concerned 
about the decline in research and development funding.
    From 1980 through today, our investment in basic defense 
research as a percentage of GDP [Gross Domestic Product] has 
declined by 50 percent. For the Army alone, advanced technology 
and component funding is 50 percent less in this budget than 
what was enacted in 2008.
    This not only impacts potential future capabilities for our 
warfighters, but also has an industrial base impact. With our 
technical workforce aging, we are in danger of losing our 
intellectual capital. We need to develop the next generation of 
engineers and scientists that will ensure the world's greatest 
innovators reside here at home.
    In the defense community, as with this year's QDR, we 
focused on what went wrong in the last war, or the war we are 
currently fighting. Who is thinking about the war of 2015? And 
what about the war in 2030? Is our country doing what it needs 
to do today to win the wars that we may confront in 2015, or 
2030?
    Finally, let me address one controversial policy initiative 
that the President has raised in recent months--repealing the 
law prohibiting service by openly gay and lesbian personnel.
    Before the President or special interests force a change in 
the policy or law, Congress deserves to hear directly from the 
individual services. I am disappointed that the decision has 
been made not to let the service chiefs testify before the 
Military Personnel Subcommittee's hearing on ``don't ask, don't 
tell,'' but, we will get a chance to hear from you today, and a 
chance to get the record on that.
    That decision limits the ability of members to fully 
understand and explore the concerns of the service chiefs about 
a repeal of current law, and I would hope that we could 
continue that discussion.
    Mr. Chairman, I would also like to say a little bit about 
Mr. Abercrombie.
    I am from California, and he is from Hawaii. And you know, 
people talk about long flights, and I remember we used to fly a 
lot together. And I would get off the plane after 5, 5.5 hours, 
and he still had 5, 5.5 hours to go, and we had to be back in a 
couple of days.
    So I can understand why he wants to spend a little more 
time at home. He has been doing that for a long time.
    But the thing that has really struck me--I served on his 
subcommittee for a long time, and both when he was ranking 
member and chairman, and he, along with these other chairman of 
these subcommittees, ranking members of these subcommittees, 
have really done a great job of keeping this committee 
bipartisan.
    And Neil has been one of the leaders in that effort, and I 
commend you for that, Neil. You have really bent over backwards 
to do that, as has our chairman with the whole committee. That 
is why it is such a blessing to serve on this committee.
    With that, Mr. Chairman, I yield back.
    The Chairman. Thank you, gentlemen.
    Secretary John McHugh, you are recognized.

    STATEMENT OF HON. JOHN M. MCHUGH, SECRETARY OF THE ARMY

    Secretary McHugh. Thank you, Mr. Chairman.
    The distinguished ranking member mentioned the privilege it 
is to serve on this committee, and I can tell you very 
honestly, I have never missed more serving on this committee 
than I do right now, but I am honored to be here.
    And, I want to thank both you, Mr. Chairman, and the 
ranking member, my two good friends, for your very gracious 
comments.
    And I want to begin by adding, if I may, my words of best 
wishes, high respect, and friendship to Neil Abercrombie.
    The chief and I had a chance to stop by his office 
yesterday. We weren't sure if he would be with us here today. 
We got the obligatory chocolate-covered macadamia nuts and 
promised when all of this was through, we would come out and 
say hi to him.
    And Ranking Member McKeon was absolutely right. I never 
knew what Neil was going to say, but I knew what he said--when 
he said it, he believed it. And it was not couched in partisan 
politics. It was couched in a belief as to what the right thing 
was to do for our men and women in uniform.
    And that, to me, is the highest tribute that any member can 
have attributed to him or her. So, Neil, we will miss you. God 
bless you for all you have done, and thank you for being such a 
great friend to our Army, and indeed, all the services.
    I would say, Mr. Chairman, ranking member, distinguished 
members of this great committee, it was just a few short months 
ago that I appeared before the Senate Armed Services Committee. 
That was a rather unique experience for me.
    And, I appeared, of course, as President Obama's nominee to 
be the 21st Secretary of the Army, and at that time, I assured 
those distinguished members of my commitment, my dedication to 
support our men and women in uniform, Army civilians, and, of 
course, those great families who stand with them.
    And as I pledge to work with each of them in pursuit of 
those objectives, I also want to promise to work with each and 
every one of you, my former House colleagues, my former Armed 
Services Committee colleagues, on behalf of America's greatest.
    It is about five months now since I first walked into the 
Pentagon, and I want to reaffirm that vital commitment that I 
made just a few short months ago. I do it, now, having an even 
greater appreciation of those amazing men and women within the 
Army who play the vital role in keeping our Nation strong, in 
keeping our Nation safe.
    And as I know you know, 1.1 million soldiers, some 279,000 
civilians, and yes, those incredible families, probably serving 
in nearly 80 countries dispersed across the planet. They 
continue, each and every day, to be at the forefront in ongoing 
counter-insurgency operations against our enemies, assisting 
other nations to build their own security capability, 
supporting Homeland Defense, deterring and defeating hybrid 
threats and state actors.
    And as I know all of you have witnessed, as we have, so 
proudly in Haiti providing humanitarian assistance in response 
to natural disasters.
    I may be stating the obvious, but it is true, and I think I 
can speak with some authority in this regard, each and every 
one of you is key to that success, key to the vital missions in 
your capacity as our Congressional overseers.
    As I said, I know full well from my 17 years on this 
esteemed committee that a strategic partnership with Congress 
is absolutely critical, essential to the success of the United 
States Army, and you have partnered with us. You have partnered 
with our soldiers, civilians, and families, and ensured that 
they receive the very best in training, equipment, health care, 
and vital family programs.
    And I want to say most importantly this morning, on behalf 
of a grateful Army, thank you for your leadership, and your 
unwavering support.
    If I may Mr. Chairman, Mr. Ranking Member, members of the 
committee, I would like to share just a few of the priorities 
that I think we need to pursue, and some of the perspectives 
that I have gained in the last five months, and where the Army 
is at this moment, where it is heading in fiscal year 2011, and 
talk a bit about the future as well.
    Now, I have been on a crash course. I thought I knew the 
Army, and I knew a great deal about it, but it was more broadly 
spread than deeply spread--but, in studying our programs, and 
visiting our installations, and going overseas in the theater 
in Iraq and Afghanistan, and examining all stages of what we 
call ARFORGEN--Army Force Generation--and talking, most 
importantly, to those soldiers, to those families and 
civilians. I have learned more.
    And, by so doing, I have been both impressed by what I have 
seen, but also, challenged by what is out there, and what you 
can find.
    First, I found an Army that, clearly fatigued by nearly 
nine years of combat, through it all still remains resilient, 
amazingly so, determined, and extraordinarily effective. Today, 
our soldiers have more expertise, more education, more training 
and lethal capabilities than ever before, and that is due, in 
large part, because of the actions of this committee.
    And due to advances in equipment, training, and doctoring, 
they are more likely than ever before to return safely to their 
loved ones and to a grateful Nation.
    Those are tremendous gains, but we have to be honest with 
ourselves. In spite of those gains, the stress on our personnel 
and their families is all too real. For all our efforts, as has 
been recognized here appropriately this morning, already the 
chief has said time and time again, we remain out of balance.
    I know all of you clearly understand the all-volunteer 
force is truly a national treasure. And, I will tell you what I 
think you realize is obvious, as well. If we wish to sustain 
it, supporting critical family and quality-of-life programs for 
our soldiers and our families must be top priority. And, I want 
to assure you, for those of us in the Army, it is, indeed, a 
top priority.
    The proposed 2011 budget rightly focuses on those 
initiatives that support those soldiers and families and 
civilians. The submission requests $1.7 billion in 2011 to 
standardize and fund those vital programs and services. We are 
attempting to aggressively address the causes of stress on 
individuals resulting from the effects of multiple deployments, 
including the essential effort to increase dwell time.
    As you know, with continuing deployments in multiple 
theaters, this has been no easy task. But, I also want to 
assure you in the strongest terms, the Army is committed to 
those objectives, and equally committed to our wounded 
warriors, and the programs that support them.
    We fully believe that it is our solemn obligation to 
provide world-class care and transition services to our 
wounded, ill, and injured through our properly led and 
sufficiently resourced warrior transition units. Your Army is 
committed to ensuring the quality of life for those who have 
served, and those who are serving today, and doing it in a way 
that is commensurate with the level and quality of their 
service to us and this Nation.
    On the subject of family programs, I have heard from many 
of you about reductions in base operations support, BOS budgets 
at installations around the country, and I would say I 
understand.
    Earlier this month, General Casey and I announced the 
Army's plan to increase BOS funding by $500 million in this 
fiscal year, 2010. The Army's Installation Management Command 
continues to work with each installation to guarantee essential 
base operating support, and the needs that derive there from 
are met.
    The Army will also conduct a comprehensive mid-year review 
of all BOS accounts to ensure that adequate funding is 
maintained to meet Army priorities through the remainder of the 
fiscal year. I want to make it clear that as our installations 
look for ways to operate more efficiently, which they should--I 
would argue which they must--family programs will be 
sacrosanct. They will not be touched.
    That is not to say that we won't ask, ``Is this program 
working? Is this money well-spent? Are there better ways to 
provide necessary care?'' But where change is required, we will 
change things. Where money is best directed, we will say direct 
it.
    But through all of that, the Army families must not--Army 
families will not be left behind.
    Secondly, I found an Army with equipment, systems and 
networks in need of reset, while simultaneously requiring 
significant modernization to ensure our soldiers maintain a 
decisive edge on the battlefield today, as well as superiority 
over threats tomorrow.
    Nowhere is this challenge more evident than in continuous 
efforts over the last eight years to repair, replace, and 
recapitalize equipment affected by the harsh environment of 
war. As a responsible drawdown in Iraq continues, and the flow 
of forces and equipment to Afghanistan grows, we will confront 
this reality anew.
    Beyond that, we have to strive to modernize efficiently in 
an era of growing fiscal challenges. As such, with this year's 
budget, the Army is embracing what I believe is an affordable 
yet effective modernization strategy designed to revamp our 
vehicle, network, aviation, and logistical systems.
    We have requested $3.71 billion for research, development, 
and acquisition, which includes $3.2 billion for brigade combat 
team modernization, as the chairman mentioned, $2.7 billion to 
fund Army network systems, and $6.41 billion to fund aviation 
modernization.
    Fully supporting these programs is vital to our soldiers' 
welfare this year and beyond.
    Thirdly, I found an Army acquisition system, that while 
improving, still lacks the workforce and flexibility needed to 
efficiently and affordably purchase the right weapons, services 
and equipment to our soldiers. Here, too, the proposed budget 
will help us better meet our continued commitment to growing 
the Army's acquisition workforce by thousands of positions over 
the next few years, thereby ensuring that we have the best 
available equipment for our soldiers, while being responsible 
stewards of taxpayer dollars.
    But I have to tell you, workforce improvements are not 
enough to fix our procurement system. I know everyone on this 
committee understands the entire process has to be retooled. We 
need a more agile system that rapidly develops, purchase and 
fields innovative solutions, and this process, this demand, 
will require more streamlined procedures and flexible rules, 
and for that we need your help.
    You have already set us on the right path. I remember 
fairly clearly how the distinguished Chairman, Rob Andrews, 
Mike Conaway, led the effort in this House to bring forward a 
reform bill that took the weapons acquisition process and put 
us on the right path.
    It is now time to address how we purchase services, and on 
that front, we look forward to partnering with you to develop a 
better system that achieves that critical objective.
    In the end, I would tell that we have an Army that is 
strong in spirit, strong in ability and results. We need to 
recognize, too, that this is an Army, after eight years of 
uninterrupted war, that is tired, stressed, and too often 
burdened by inefficient bureaucracy. This has to change, and 
with your help, we will make those changes.
    Let me just highlight, in closing, my deep appreciation for 
those brave men and women, and by so doing support this Nation 
and every thing and every action they make. Every day, I am 
humbled by their dedication and service to our Army and to our 
Nation, and I am truly blessed every morning to walk into a 
building to go to work where the word ``hero'' truly means 
something.
    All of you on this great committee, and I mean that, great 
committee, have so much to do with that. Thank you, again, for 
your support of our men and women in uniform, civilians, and 
their families, and I appreciate and am humbled by the 
opportunity to be here today.
    Thank you, Mr. Chairman, and I will yield back.
    [The joint prepared statement of Secretary McHugh and 
General Casey can be found in the Appendix on page 51.]
    The Chairman. Mr. Secretary, thank you.
    I can only say, after hearing your excellent presentation 
to our committee from that side of the table that the President 
of the United States made a wise choice in choosing you as the 
Secretary of the Army. We wish you well.
    General George Casey.

 STATEMENT OF GEN. GEORGE W. CASEY, JR., USA, CHIEF OF STAFF, 
                           U.S. ARMY

    General Casey. Thank you, Mr. Chairman, and I would 
associate myself with your comments about Secretary McHugh.
    Before I start, Mr. Chairman, I would like to do two 
things. I would like to add my praise to the farewell of Neil 
Abercrombie, and I would like to introduce 4 men and women who 
are representative of the 1.1 million soldiers of this great 
army.
    First of all, Congressman Abercrombie, it is no secret that 
you and I differed, fundamentally, on some pretty important 
issues. But our conversations were always issues-based, never 
personal, and always focused on doing what was right for the 
men and women of the Army as rapidly as we could. And you can't 
ask for anything better than that. So, although I never quite 
thought I would say this, I will miss you. Good luck to you. 
[Laughter.]
    Now, Chairman, I would like to introduce four men and women 
who are representative of this great Army. First of all, 
Kimberly Hazelgrove.
    Kimberly's husband, Brian, was killed in Iraq six years ago 
in a helicopter crash. She was a staff sergeant in the Army at 
that time, and now she has left the Army to raise her four 
children, and as you can see, she is very active in the Gold 
Star Wives organization.
    Thank you.
    [Applause.]
    General Casey. Next to her is Staff Sergeant Christian 
Hughes. He was wounded in Afghanistan last October, and he is 
recovering here at Walter Reed from his wounds and looking 
forward to rejoining his unit as quickly as he can.
    [Applause.]
    General Casey. Next is Sergeant 1st Class Shana Tinsley. 
Shana's husband, Arthur, leaves for Afghanistan today, and she 
will remain here, working for us in the Pentagon and raising 
her two small children. Thank you, Shana.
    [Applause.]
    General Casey. And lastly, Sergeant 1st Class Jeff Lawson. 
Sergeant Lawson has recently completed our Master Resilience 
Training program at the University of Pennsylvania, one of only 
600 Master Resilience trainers we have trained as part of our 
comprehensive soldier fitness program, which I will talk about 
here later in my presentation. He has got three tours in Iraq.
    Thank you, Sergeant Lawson.
    [Applause.]
    General Casey. Thank you.
    Now, Mr. Chairman, as you said, for the last three years, I 
have said that the Army is out of balance. That we were so 
weighed down by the current demands that we couldn't do the 
things we know we need to do to sustain this force for the long 
haul, and to provide the strategic flexibility to do other 
things.
    I can tell you that with the help of this committee, we 
have made progress over the last three years to get back in 
balance, but we are not out of the woods yet.
    That said, this 2011 budget contains the procurement 
funding to finish the modular conversion that we began in 2004, 
and the growth that we began in 2007. It also contains the 
military construction funding to complete the 2005 BRAC [Base 
Realignment and Closure] realignment.
    So your continued support will allow us to meet the goals 
we set six years ago to build an Army more relevant to 21st 
century challenges, and to restore balance to this great Army.
    You will recall that we centered our plan to get back in 
balance on four imperatives. We felt we had to sustain our 
soldiers and families, the core of this volunteer force. We had 
to continue to prepare our soldiers for success in the current 
conflict. We had to reset them effectively when they returned, 
and then, we had to continue to transform for an uncertain 
future.
    And let me just give you a quick update that you asked for 
on how we are doing.
    Our first objective was to finish our growth, and you will 
recall that January 2007 we were instructed to increase the 
size of the Army by 74,000. Originally, we were going to do 
that by 2012.
    With Secretary Gates' help, and the help of the committee, 
we actually completed that growth last summer. And, when that 
didn't prove to be sufficient, we received another temporary 
increase of 22,000 soldiers, and we intend to evaluate whether 
we need the full 22,000 later this year.
    This growth, coupled with the drawdown in Iraq, allowed us 
to meet the additional increase of troops in Afghanistan 
without having to go to 15-month deployments, and with having 
to not come off the stop-loss.
    Our second key objective was to increase the time our 
soldiers spend at home, and I must tell you, after almost three 
years on the job, I am convinced that this is the most 
important element of getting us back in balance.
    It is important from several perspectives. First, our 
soldiers need increased time at home to recover from the 
repeated combat deployments. What we continue to see across the 
force are the cumulative effects of these repeated deployments.
    We have recently completed a study that tells us what we 
intuitively knew, that it takes two to three years to 
completely recover from a one-year combat deployment. And that 
is why it is so important for us to achieve the objectives we 
set three years ago, to get to one year out, two years back for 
active soldiers, and 1one year out, four years back for Guard 
and Reserve soldiers. We are on track to meet that for the 
majority of the force by 2011.
    After that, as demand decreases, we plan to move to more 
sustainable ratios of three years home and five years home, 
respectively.
    The second reason it is important to spend more time at 
home is it gives you more stable preparation time to prepare 
for the current missions, and it allows us time to prepare to 
do other things, to restore some of the strategic flexibility 
that you talked about, Mr. Chairman.
    I recently visited a unit that had 18 months at home, and I 
can tell you that the difference in pace between 12 months at 
home and 18 is striking. The additional time at home will allow 
us to have more units trained for the full spectrum of 
operations, and we will gradually rekindle some of the skills 
that have atrophied over the past several years, and regain 
some of the deterrent effect, again, that you talked about, Mr. 
Chairman.
    Our third objective was to move away from our Cold War 
formations, to organizations that were more relevant in the 
21st century. In 2004, we set out to transform all 300-plus 
brigades in the Army to modular organizations.
    Organizations that could be rapidly tailored to fit the 
situation that existed, rather than just sending a unit that 
was designed to do something else.
    Today, we are almost 90 percent complete with that 
conversion, and these formations are demonstrating their 
relevance and their versatility on the ground in Iraq and 
Afghanistan every day.
    We also set out to rebalance the skills within the force, 
to move away from skills that were necessary in the Cold War to 
skills more needed today. This involved converting, retraining, 
and equipping around 150,000 soldiers from all components to 
new jobs.
    By way of example, in the last 6 years we have stood down 
200 tank companies, artillery batteries, air defense batteries, 
and we have stood up a corresponding number of military police, 
engineers, civil affairs, psychological operation and Special 
Forces companies.
    Together, this rebalancing and the modular reorganization 
is the largest organizational transformation of the Army since 
World War II, and we have done that while deploying 150,000 
soldiers over and back to Iraq and Afghanistan.
    Fourth, we are moving to put the whole Army on a rotational 
cycle, much like the Navy and Marine Corps have been operating 
on for years. This model will allow us more effectively and 
more efficiently, to provide a sustained flow of land forces 
that are trained for the full spectrum of operations, so that 
we can prevail in today's wars, but also hedge against 
unexpected contingencies. And, we can do both of those things 
at a tempo that is sustainable to this all-volunteer force.
    Our fifth objective was to complete our re-stationing, and 
we are a just over halfway in these efforts. We are on course 
to complete the 2005 BRAC realignment by the end of 2011. These 
moves will affect over 380,000 soldiers, family members, and 
civilians.
    And while this is a great deal of turbulence, new 
construction on our military installation is greatly improving 
the quality of life of our soldiers and families.
    So, the bottom line in all this, Mr. Chairman, is that we 
have made good progress in the past year toward restoring 
balance, but we are not out of the woods yet.
    Now, I would like to conclude with three priorities for us 
that I hope were also priorities for this committee. First of 
all, sustaining our people.
    This budget contains money for housing, barracks, 
childcare, youth centers, warrior transition units, and 
surviving spouse programs. All critically important to 
sustaining our soldiers and families.
    It is important to get them through this period in which 
our country is asking so much of that.
    In general, we are strengthening the programs to add 
resilience to our force, and to help our soldiers and families 
deal not only with the problems and challenges from the past, 
but to prepare them for the future.
    We have all seen manifestations of the stresses of 8.5 
years at war: elevated suicide levels, increased demand for 
drug and alcohol counselors and behavioral health counseling, 
increased divorce rates, increased numbers of soldiers 
temporarily non-deployable from nagging injuries from previous 
deployments. And we have been aggressively moving to give our 
soldiers and families the skills they need to deal with these 
challenges.
    In October, we began a program that we had been actively 
working on for 18 months with some of the best experts in the 
country.
    The program is called Comprehensive Soldier Fitness, and it 
is designed to give mental fitness the same level of attention 
that we give to physical fitness. We intend to provide our 
soldiers and families the resiliency skills that they need to 
succeed in an era of persistent conflict.
    The program consists of four components. First, an online 
assessment to help them identify their resiliency strengths and 
weaknesses. This assessment has already been taken by over a 
quarter of a million soldiers.
    Secondly, there are online self-help modules that soldiers 
and family members can take in the privacy of their own home to 
increase their resiliency skills.
    Third, we are training master resilience trainers for every 
battalion in the Army, like Sergeant Lawson, to assist the 
soldiers in developing their resiliency skills, and over 600 
master resilience trainers have already been trained at the 
University of Pennsylvania.
    And, finally, we will incorporate resiliency training in 
every Army leader development school. This program shows great 
promise, and I look forward to discussing it further in the 
questions and answers.
    Second priority--the reset of our equipment will become 
increasingly important as we complete the drawdown in Iraq over 
the next 2 years, 2 to 3 years, and for 2 to 3 years after the 
end of combat operations.
    I think it is important to note how key the reset has been 
to the high operational ready rates that we have sustained over 
time in Iraq and Afghanistan. This budget provides almost $11 
billion to reset our equipment, and sustained funding for reset 
will be essential to the long-term health of the force.
    Finally, this budget contains a significant adjustment to 
our modernization strategy. I believe that we are in a period 
of fundamental and continuous change, as we have to adapt to 
ever-evolving enemies.
    And so, in close consultation with the Secretary of 
Defense, we have transitioned from the Future Combat Systems 
program to what we believe is an achievable, affordable 
modernization strategy for our brigade combat teams. This 
program leverages the lessons we have learned at war, and from 
the Future Combat Systems program, itself.
    It includes four elements. First, incrementally modernizing 
our network to take advantage of rapidly developing changes in 
technology. Second, incrementally fielding capability packages 
to put the best equipment into more of the force as rapidly as 
possible. Third, incorporating MRAPs into our force, and 
fourth, rapidly developing and fielding a new ground combat 
vehicle that meets the requirements of the 21st Century Army.
    We intend to make this program a model for the Weapons 
Systems Acquisition Reform Act, and we look forward to working 
with the committee on this.
    So, I would like to close by saying how proud I am of what 
the men and the women of this great Army have accomplished at 
home, and abroad. We have made progress to restoring balance, 
but we still face a tough road ahead, and so, Mr. Chairman and 
members of the committee, we couldn't have done this without 
you. Thank you, and I look forward to taking your questions 
with the Secretary.
    [The joint prepared statement of General Casey and 
Secretary McHugh can be found in the Appendix on page 51.]
    The Chairman. And General, thank you for your excellent 
presentation.
    Some time ago, General, you and I had a conversation about 
the attempt by the Army to be prepared for a full-spectrum 
combat. On the one end, force-on-force en masse, and on the 
other end, guerrilla insurgency force. And I think I told you 
at that time there are only two problems that you have with it; 
the first was time, and the second was money.
    So, let me ask, what is the status for the proposal for a 
full spectrum Army, and what are the prognoses for the days 
ahead, General?
    General Casey. Thank you, Chairman, and as always, you take 
the intellectual approach to this.
    Our discussion started with February 2008, when we 
published our first major revision of our doctrine since 
September 11. The doctrine lays out an operational concept of 
full-spectrum operations, as the Chairman said. And, it says 
that Army units will simultaneously apply offense, defense, and 
stability operations to achieve success no matter where they 
are operating on the spectrum of conflict.
    And, as the Chairman suggests, this is a tall order. It is 
a tall order from a doctrinal perspective, it is a tall order 
from a training perspective, and it is a tall order from a 
leader-development perspective. And we have, since that time, 
continued to develop and evolve our doctrine. We have continued 
to develop and evolve our leader-development programs and 
training, and we have continued to evolve our training.
    But as I suggested in my opening comments, we won't have 
units home long enough to begin full-spectrum operations 
training against hybrid threats, probably, until the end of 
this year, first part of next year.
    But we have already begun adapting our training centers to 
be able to replicate the hybrid threats that we are most likely 
to face, and to develop the training programs for our units.
    The other piece of this, Chairman, is it has rightly set 
off a lot of internal discussion and debate within the Army 
about how to do this. And I will tell you that we are still 
working our way through this, but I have directed that it be 
discussed and debated in all our war colleges and staff 
colleges.
    So, it is a work in progress.
    The Chairman. And General, thank you--Mr. Secretary, I have 
been waiting a year to ask the general that question. Thank you 
for your thorough answer.
    Secretary McHugh. May I add just a bit to that. I think, as 
your opening comments suggested, both clearly and correctly, 
Mr. Chairman, it is difficult to guess what the enemy of 20 
years or 30 years from now will look like. But you need to take 
into consideration the widest possible range of variables.
    And the Chief's comments in his opening comments, he talked 
about our new way of trained, ready, equipped, and making 
troops available. And part of that, in our modernization 
strategy, couples up with what we are calling incremental 
packages--a means by which our smart people can look at 
emerging threats, and quickly put together and then field 
packages of capabilities that can respond more quickly, and 
obviously, hopefully, more effectively to those emerging 
threats.
    So this isn't just a matter of what you are doing today. It 
is a matter of putting into place a process by which you can 
evolve the equipment, the tool level, to provide those soldiers 
as they go out into the field, with whatever they may need that 
is capable and responds sufficiently to the enemy threat of the 
moment.
    The Chairman. Thank you.
    Mr. Secretary, let me ask you a tough question. You were 
such an able member of this committee, and also serving as 
ranking member, and you saw the Army through the eyes of an 
acting member of Congress, and now you see the Army as the 
leader of the Army. What surprise, or surprises you, both good 
and not-so-good, do you see now that were not apparent to you 
as a member.
    Secretary McHugh. That is a great question, and just as I 
am honored every day to walk into that building, I am surprised 
every day to walk into the building.
    The biggest surprise is, when you say something, people 
actually do it. That was never my experience as a member of 
Congress, so I have had to be careful what I say because it has 
potentially disastrous consequences.
    I don't think the Army, and it is probably understandable 
when you are at war, has done a good enough job paying 
attention to the professional development, paying attention to 
the stress and strain that has been placed on the civilian side 
of this force.
    We understandably look at those folks we deploy, look at 
the folks we put into their hands the weapons, think, as we 
absolutely must, as you heard in my opening comments, about 
their families.
    But there are civilians too that are under enormous stress. 
And whether they are deployed out in forward theater or they 
are back home working on the bases, helping the troops get 
ready to ship out, or whether they are in the Pentagon, or 
dispersed along with those military heroes across the 80 
countries I mentioned.
    I don't think we have applied well enough stress relief and 
counseling opportunities and benefit programs that we are 
making available to our soldiers, their families, to the 
civilians, as well. I was a little bit surprised by that, not 
so much that I thought it was being done, but frankly, I didn't 
think much about it.
    And I think this is an Army team, and we cannot just focus 
on one part of that team. The 1.1 million in uniform has to be 
where it has to starts, but these are amazing civilians in the 
acquisition force, and elsewhere that are just--they have been 
at war too, and surprise may not be the exact word, but I think 
we have got to begin to focus on that, and we have begun to do 
that.
    The Chairman. I thank the Secretary.
    The ranking member, gentleman from California, my friend, 
Buck McKeon.
    Mr. McKeon. Thank you, Mr. Chairman.
    I also would like to associate myself with your comments 
about the Secretary. From my view, you are doing an outstanding 
job, and we are, as I said, proud of you.
    General Casey, in your personal opinion, do you believe the 
current law prohibiting service by openly gay and lesbian 
personnel should be repealed?
    General Casey. Congressman, I have got serious concerns 
about the impact of the repeal of the law on a force that is 
fully involved in two wars, and has been at war for 8.5 years. 
We just don't know the impacts on readiness and military 
effectiveness.
    I am also well aware that I owe the Secretary of Defense, 
the President, and this committee my advice, my military advice 
on that, and I would prefer it to be informed military advice. 
So, I fully support the program that Secretary Gates has laid 
out, to look at this and to study this, and then I will come 
back to the committee and give my informed advice on this.
    The last thing I would say, Congressman, is that if 
Congress repeals the law, the Army will implement it in the 
same professional and disciplined way that has characterized 
our service for 234 years.
    Mr. McKeon. And I don't think there is any question about 
that.
    Given the strain on our forces in fighting two wars, as you 
mentioned, would a repeal or moratorium this year, in your 
opinion, improve our readiness, or have effect on our 
readiness?
    General Casey. First, on the moratorium, I do not support a 
moratorium before the law is actually repealed. It would put us 
in a position of implementing while we are studying the 
implementation, and it is a difficult enough issue, and it will 
only complicate things.
    As I said, I do have concerns. I don't know what the 
impacts on readiness and military effectiveness will be, but I 
am concerned. And so, I would say right now that I don't 
believe it would increase readiness.
    Mr. McKeon. Secretary, do you care to comment on those 
questions?
    Secretary McHugh. As you know, Congressman McKeon, I work 
at the pleasure of the President. And I think, for whatever 
agreement or disagreement may appear in this room with his 
intentions, his intentions were clearly made, both during the 
campaign and the early days of his presidency, that he feels 
this policy is fundamentally unfair, and is absolutely 
committed to changing it, recognizing, of course, that it is a 
law, and changes can come only through an act of Congress and 
as signed by the President of the United States.
    Having said that, I entered this job fully recognizing and 
having discussed that intention with the President, and I 
intend to fulfill my responsibilities, and that is to engage, 
as the Secretary of Defense has directed us, to bring back the 
information, to inform the way forward, do it to the best of my 
ability, and then whatever policy decisions are made from the 
Secretary of Defense and the Commander-in-Chief and the White 
House--try to do my best to explain those and to carry them 
forward.
    On the moratorium, I am strongly opposed to a moratorium. I 
would view it as, personally, very unhelpful, and I would tell 
you, having discussed this personally with the Secretary of 
Defense, it is the policy of the Department of Defense and the 
Secretary that that is a place of opposition, as well.
    Mr. McKeon. Thank you, very much.
    General Casey, a couple of questions about brigade combat 
teams. In his first hearing in front of this committee, General 
Shoemaker, your predecessor, testified that he thought the Army 
might need 77 to 82 BCTs [brigade combat teams] to support the 
needs of the combat commanders. He came back a year later and 
said the number was 70 BCTs. Then, a couple of years ago, the 
number was changed to 76 BCTs, and, as you know, the year 
before QDR, the number was changed to 73 BCTs, and the current 
QDR reflects the 73 BCT number.
    First question, is 73 BCTs the right number, or is that the 
number because that is what we are resourced for?
    General Casey. Congressman, the 73 BCTs organized on a 
rotational model will give us the number of BCTs to deploy, 
almost meet current requirements, but to meet what we see as 
the sustained requirements over time, and do it at a deployment 
ratio that is sustainable for the force.
    Let me explain that a little bit. At 73 brigade combat 
teams, that gives us 26 heavy brigades, 40 light brigades, and 
seven Strykers. Now, that is a pretty versatile capability, and 
we are very much interested in versatility.
    And if you look at some of our divisions that are in Iraq 
and Afghanistan today, you will see. You will have a heavy 
brigade, a couple of light brigades and sometimes even a 
Stryker brigade. That is the flexibility and versatility that 
we want to build into this.
    If you take that force, and organize it on a rotational 
model of 1 year out, 2 years back for the active force, 1 year 
out, 4 years back for the Guard and Reserve, that allows us to 
routinely generate 20 brigade combat teams.
    Now, in Iraq and Afghanistan today, we have 24 brigade 
combat teams deployed. So, that means the deployment ratio is 
not exactly what we want to be. But, with the drawdown in Iraq, 
we will not only be able to meet the total number of brigade 
requirements for Iraq and Afghanistan, but also have brigades 
available for other combatant commanders to do security 
assistance and other training.
    So, right now, given the strategy and given the demands 
that we foresee, I believe that 73 brigades is the right 
number. It may change.
    Mr. McKeon. Good.
    Second question, then. Do we have the right mix between the 
infantry and the Stryker and the heavy BCTs?
    General Casey. Two answers to this--one is, we are studying 
it.
    You know, we started it in 2004 to build to a mix. We are 
almost finished doing that. Now, we are assessing are the 
decisions we made back in 2004 still relevant?
    And I will tell you right up front, I would like a few more 
Strykers. I would like to be able to put three Stryker brigades 
in a rotation, and that means that we need to get to nine to do 
that. And, we are already adding an eighth one, and we are 
debating right now whether to add a ninth one with a 1217 
program.
    Mr. McKeon. In regards to the BCT mix, the budget requests 
funds for the conversion of one heavy BCT to a Stryker. There 
is talk that you may convert additional heavy BCTs. Is our 
force structure adequate for high-end conflict? In other words, 
are we too focused on the near-term with Iraq and Afghanistan 
versus something that could happen else where in the world?
    General Casey. If you take that 20-brigade combat team that 
we could provide in a rotation, that is 11 infantry equipped 
with MRAPs, 2 Strykers and 7 heavies. So, that is two-plus 
divisions of heavy forces.
    And then, you would have another similar packager available 
in the next pool.
    So, we have quite a lot of combat power still available, 
and I think the mix, the way we have it now, possibly slightly 
adjusted in the near-term, gives us the versatility that we 
think we need.
    Mr. McKeon. You mentioned decisions made in 2004, and now 
you are reviewing them. I think we are always going to have--
nobody can sit, even right now, as I mentioned in the opening 
statement, and know what things are going to be like in 2015 or 
2030.
    And so, there will be constant evaluation, and 
reevaluation, and it sound to me like you are right on top of 
that and doing what needs to be done to keep the Army current.
    General, as you know, the ISR [intelligence, surveillance, 
and reconnaissance] remains one of the top priorities for 
Afghanistan. Certainly, Secretary Gates has testified to this. 
I see that the budget request includes $459 million for the 
Extended Range/Multipurpose program. I also understand the 
program recently conducted a successful milestone decision.
    Can you talk a little bit about how this program is 
progressing?
    General Casey. I can, Congressman. I mean, the whole 
unmanned aerial vehicle program is something that we have been 
working very hard on, because of its relevance, not only in 
Iraq and Afghanistan, but across the spectrum.
    And we have set up an unmanned aerial vehicle strategy that 
starts down at the platoon and company level and goes all the 
way up to the division and core level. This extended range 
multipurpose aircraft program is very much on track. As you 
mentioned, we are adding two more companies in this budget, and 
we have explored a new design for our combat aviation brigades 
that incorporates these companies into those aviation brigades, 
and so what we are doing is increasing our capability of manned 
and unmanned teaming, and I think that is going to be the wave 
of the future.
    We are already doing it to a degree in Iraq and 
Afghanistan, but I think we are increasingly going to see the 
potential offered by the unmanned systems. And matching them 
with the manned systems is, as I said, is the wave of the 
future.
    Secretary McHugh. Well, I don't really have a lot to add 
except that I know that many of the members here have, as I 
did--15 times to Iraq and 4 times to Afghanistan--one of the 
first things you hear out of any commander is, ``What do you 
need? ISR.''
    And we are attempting to meet that commitment, and the 
ranking member correctly noted the rather substantial on the 
high level ERMP [extended range multipurpose aircraft], but we 
are taking, again as the chief said, down to the platoon level. 
This is the force multiplier that we are very committed to. We 
have the problem of the technology so quickly advancing, by the 
time we are ready to field something, it is not out of date, 
necessarily, but could be improved, so we have got to get our 
systems under control a bit better. But, this is something that 
a lot of folks in the Pentagon spent a lot of time focusing on, 
as rightly they should.
    Mr. McKeon. I think you have done an outstanding job of 
getting some of these vehicles into the theater quickly 
without, you know, delays with constant testing, and I think it 
has saved a lot of lives, and I want to commend you on that.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. I thank the gentleman.
    I have one last question before I go to the other members. 
General, in your discussion this morning, as well as other 
discussions, it seems the Army is brigade-centric. We talk 
about a brigade here, a brigade there. What in the world do 
divisions do? What does a division chief do? He certainly 
doesn't play pinochle all day.
    General Casey. Wow. No.
    And in fact, I know you have visited divisions in Iraq and 
Afghanistan, they are very, very gainfully employed. In fact, 
when General Odierno was here last week with us, he made the 
point of saying that he had to keep three divisions in Iraq 
until the end because of the capabilities that those divisions 
bring.
    Now, I get this quite a bit from a lot of old retired 
folks, but the division headquarters still remains our highest 
tactical level headquarters, and it is capable of overseeing 
numerous brigade combat teams and enabling brigades like 
aviation, military police. And they are the ones that organize 
for--half of Iraq. They are responsible for organizing the U.S. 
efforts in about half of the country.
    The reason we went to brigade combat teams is because in 
the old division headquarters the supporting enabling forces 
were part of the division. And so if you wanted to send 
something smaller than division, you had to break apart the 
division base to send it. So now you had a division that you 
couldn't deploy.
    And what we have done is we have taken the enabling forces 
out of the division and put them in brigades. But we have still 
left the supervisory capability. In fact, we have increased the 
supervisory capability of the divisions. And so what we are 
able to do is put a very competent tactical headquarters in and 
then give it the brigade combat teams and the enabling brigades 
to suit the mission that it is doing.
    And so it is brigade-centric but there is very much a role 
for divisions. And there are 18 two-star commanders out there 
that feel very strongly that they have a significant role to 
play in what we are doing.
    The Chairman. Thank you, General. I have been wanting to 
ask that. We are going to break tradition a bit today and ask 
our friend from Hawaii to ask questions and then we will go 
back to regular order.
    Gentleman from Hawaii, Neil Abercrombie.
    Mr. Abercrombie. Thank you very much, Mr. Chairman.
    I know this will come as a great surprise and shock to 
everyone in the room, but I think I will make a statement 
rather than ask a question as such.
    Mr. Chairman, thank you.
    Ranking Member, my good friend Buck.
    Thank you General Casey and John for your comments.
    If I had known that I was this respected, this admired, 
even beloved, I would have left a lot sooner. [Laughter.]
    But, Mr. Chairman, this is the last time I will have an 
opportunity to participate in the Armed Services Committee 
hearing process and be with you and the rest of the committee. 
I hadn't realized that it is totally a coincidence but a happy 
one, perhaps fated that it would involve the United States Army 
as well.
    I have been privileged now to serve since the Democrats 
became the majority as the Chairman of the Air and Land 
Subcommittee which has particular responsibility where the Army 
is concerned.
    And as noted by Buck and yourself, I have served as a 
member, ranking member, and chairman of the committee. And as a 
result I have had the opportunity to work. I don't like to use 
the word bipartisan. I like to use the word nonpartisan. I have 
never thought about it.
    I think we are all partial on the side of trying to serve 
the strategic interests of this Nation with regard to the 
United States military and more particularly to meet our 
responsibilities and obligations as Armed Services Committee 
members toward the fighting men and women of this Nation.
    I served with a committee staff both from the Armed 
Services committee staff and with the air-land staff, Mr. 
Chairman. I want to state as I take my leave, my profound, deep 
respect and admiration for the staff of this committee, and 
more particularly for the last couple of years now with the 
air-land staff, the subcommittee staff.
    It is without question and I don't think necessarily the 
public appreciates fully--I don't mean appreciates in the fact 
of being grateful for--I meant comprehends and has knowledge 
sufficiently as to what service is provided to the Nation and 
its interests and most particularly to the members of this 
committee by the staff. I can't name all of them. I wouldn't 
attempt to do it. They know how much I appreciate and care for 
them.
    In that context I have had the privilege of serving with--
as ranking member and taking as my role model perhaps much to 
the great regret of some others on this committee, Curt Weldon. 
And it was his staff, the armed services staff that came from 
people like Duncan Hunter and our predecessors that are in the 
portraits here around the room.
    They put together these staffs. We took it over whole 
because they were professionals. We don't have a Democratic 
staff and a Republican staff, a majority and minority staff. We 
have people dedicated to the work in the Armed Services 
Committee.
    I had the privilege of having Roscoe Bartlett as my friend 
and ranking member and working with him.
    Roscoe, your service to this Nation, not just this 
committee but to this Congress and this Nation can serve as a 
standard and a model.
    And to have your friendship, yours, Buck, and the others on 
this committee is something that I treasure. I don't want to 
slight anyone, believe me I don't, but I have to make 
particular mention of my seatmate to my left.
    One of the consistent elements of the Congress and in the 
committee is the seniority process. And so no matter what I do 
I am always going to be seated to the right of Gene Taylor.
    I find myself today, Mr. Chairman, recognizing what Gene 
has reminded me of is that if I was drawing a parallel, we went 
to kindergarten together and now we have gone all the way 
through elementary school, middle school, high school, college, 
and graduate school, and we are still sitting next to one 
another.
    And in that process have become the dearest of friends and 
colleagues and I have the greatest admiration and respect for 
Gene, for Solomon, John Spratt, and Mr. Chairman, yourself.
    I want to say that I was sworn in, I was the last person 
sworn in by Tip O'Neill before he retired. And he indicated to 
me in no uncertain terms of whether you serve for a short time, 
as I did at that time having won a special election and lost a 
primary in the same day. That whether you serve for 3 weeks, 3 
months, or 30 years in the Congress of the United States that 
as a Member of the House of Representatives you were a member 
of the people's house. Every Member here has his or her seat 
because of the election by constituents in their districts.
    You can be appointed to the Senate but you cannot be 
appointed to the House of Representatives. This is the people's 
house. And as such we have the faith and trust of our 
constituents and I want to indicate to every Member here that 
they have my faith and trust.
    And most particularly Mr. Chairman to you, your friendship 
to me, your mentorship, your council to me, has been nothing 
less than something that I treasure. Your leadership and your 
chairmanship has come to you as a result of a long and faithful 
service to this Congress, to the Nation, to your constituents 
in Missouri.
    I am very, very happy to have played a role in seeing that 
the USS Missouri now occupies its rightful place next to the 
Arizona memorial. The alpha and omega of World War II which I 
think set the pattern for all of the work of the Armed Services 
Committee and the Congress of the United States with regard to 
the military posture of the United States. All that was set at 
Pearl Harbor on December 7, 1941.
    And I am happy as I take leave that the goal I had coming 
to this committee of being able to have an integrated presence 
at Pearl Harbor of the Arizona Memorial Visitor Center, the 
Arizona Memorial itself, the USS Missouri, the Air Land Museum 
and the USS Bowfin at Ford Island has now been completed. And 
so we will have, not just a monument but a living object lesson 
for the United States of America and all the generations to 
come who visit Hawaii and visit Pearl Harbor as to the 
direction the Nation must take in terms of preparedness.
    And with that I want to conclude, Mr. Chairman, by saying 
that every committee in this Congress is important. Right now 
the President of the United States and Members of the Congress 
in both parties are conducting a health care summit, obviously 
vital to the welfare of the Nation. We have the finance 
committee. We have the judiciary committee. We have discussions 
even in the comments this morning by the Secretary and General 
Casey about policy implications for the Army and the military--
all important.
    But only this committee, only the Armed Services Committee 
deals with life and death issues. Every decision we make has 
the direct implication of life and death.
    The gold star wife that is here today is living three-
dimensional testimony to that responsibility and obligation 
that we have. And I want to say that, as I take my leave, that 
every moment of my service on this committee has been devoted 
to that obligation and that responsibility as I know every 
Member has when he or she takes his seat on this committee.
    We try to exercise our best judgment to meet the strategic 
necessities of this Nation and that we have first and foremost 
in our hearts and minds the fighting men and women of this 
Nation.
    And with that, Mr. Chairman, I bid you, the Members, and 
the House of Representatives, the people's house, a fond and 
deep and faithful aloha.
    The Chairman. I thank the gentleman from Hawaii. As we bid 
an affectionate farewell to our friend, he leaves with the 
knowledge and the satisfaction of having written a bright page 
in the history of the United States military.
    We thank you again, Neil Abercrombie.
    Mr. Bartlett, we are under the five-minute rule. Mr. 
Bartlett.
    Mr. Bartlett. Thank you. When I came to the Congress 17 
years ago, knowing no one and having never served in a 
legislative body, I was here but a few days and I attended a 
briefing, poorly attended then by Members as they are now.
    But one of the Members there was Neil Abercrombie. And he 
spoke with such knowledge and wisdom I thought ``Gee, this guy 
must have been here a really long time.'' I learned a bit later 
that it hadn't been a really long time, and so he brought a lot 
with him when he came here and he has grown a lot since he has 
been here.
    Neil, I value our friendship for these 17 years. Thank you. 
Thank you so much.
    The Secretary and I came together in the class of 1992 and 
for 17 years we sat together on this committee. And I served 
for a number of years on his personnel subcommittee, the most 
challenging committee of this full committee.
    Thank you, Mr. Secretary, for your service then and your 
continued service now. I have four brief questions that I will 
ask as quickly as I can to give time for your answers.
    As you know our soldiers today carry more and more weight, 
two and three times the weight they carried in Vietnam. 
Everything they carry is there to make them more efficient and 
to protect them. But clearly this increased weight encumbers 
them and I have no idea how many more casualties because of the 
high weight that they carry. And one of the weightier things 
they carry is body armor. And we had fought very hard on our 
subcommittee to make this a dedicated R&D [research and 
development] and procurement line.
    We thought this would enhance the focus on this and we 
think this is really needed. This didn't happen. You know, why 
didn't it happen and how can we make it happen so that we can 
have the focus? We believe we need to reduce the weight and 
increase the effectiveness of this body armor.
    A second question relates to something that many of these 
servicemen carry and that is the M4 Carbine. You have a dual-
path strategy both enhancing the current weapon and procuring a 
new one. Where are we on this dual-path strategy?
    A third question deals with the future combat systems. This 
was the Army's largest procurement program. It was canceled 
and, you know the tragedy was that many of the things that it 
focused on were urgently needed by the Army. And we understand 
that you are now developing an RFP [request for proposal] for a 
combat ground vehicle and we wonder where is that RFP and when 
can we see it hit the streets?
    General, you mentioned--no, it is the Secretary who 
mentioned that we could not see what a future enemy might look 
like. I will tell you sir that I am sure that one of his 
characteristics will be a characteristic shared by all of our 
potential enemies today. In all of their open literature and in 
all of their war games an EMP [electromagnetic pulse] event is 
an early use. How well are we prepared to continue to fight 
after a robust EMP lay down? Thank you and I will wait for your 
answers to these four questions.
    Secretary McHugh. I am going to, if I may, Congressman 
Bartlett, jump around a little bit and the chief will come in 
and tell you actually what is happening.
    But I want to start with the M4. There has been a lot of 
concern about the reliability of that weapon, and I have 
received letters from concerned members of this committee based 
on reports that they have heard and things that they have seen. 
And we are in the Army concerned about the reliability of 
everything we put into our soldiers' hands, not the least of 
which is the key weapon when they are forward deployed and out 
in the field of battle. When the M4 was first developed it had 
a requirement of 600 rounds of what we call mean rounds between 
stoppages, MRBS.
    Through those years of fielding and through the 
improvements that capability has now grown, not the 
requirement. The requirement has stayed essentially the same 
but the capability has grown to over 3,500 rounds mean rounds 
between stoppages. That I think is fairly described as a 
remarkable improvement.
    After Wanat there were discussions about the reliability of 
that weapon and we have looked at is very carefully and we want 
to ensure that we are doing right by those brave men and women. 
And as you mentioned that is a critical component of it. As to 
the way forward you again correctly mentioned two steps. The 
first is an RFP is being prepared to call out to industry to 
bring to the Army suggestions for----
    The Chairman. Please answer.
    Secretary McHugh. You haven't bothered me up there but that 
was--suggestions from industry as to how they can bring 
improvement packages immediately to the weapon to continue to 
improve it and in the long term is the analysis and development 
of requirements for a new personal carbine. So we are working 
that very hard. I am not sure, Mr. Chairman, may we continue 
or----
    The Chairman. Please do as briefly as possible.
    Secretary McHugh. Weight. Weight is critical. Body armor 
weight is critical. We are testing each and every day where the 
edge exists between reliability and breakdown. And it is a 
technical question. It is something we challenge, you are 
right, not through set requirements but through dialogue with 
the industry as each and every year, frankly, each and every 
month as to what can we do with the technology to take weight 
down and maintain reliability?
    We are working on E-SAPI [enhanced small arms protective 
inserts], X-SAPI [X small arms protective inserts], the means 
by which we test to ensure that we fielded plate carriers that 
reduced, I believe it is by about six pounds just through how 
we place the plates on the soldiers. And that is one of the 
most important things that we consider each and every day and 
we are working hard.
    Any suggestions, Congressman, you might have as to how to 
pursue that we would not would just entertain them, we would 
deeply appreciate them. So I will turn to EMP and FCS [future 
combat systems] with the chief if he would care to field those.
    General Casey. Very briefly, the RFP for the manned ground 
vehicle should be on the street within the next 30 days. With 
respect to the EMP I think two aspects of it, training and 
testing. We test all our major systems for their ability to 
operate in an EMP environment. As we get more time at home and 
begin training for the full spectrum operations our training 
will increasingly include the ability to operate in an EMP 
environment.
    Secretary McHugh. Could I just add too, Mr. Chairman, Mr. 
Bartlett, I am deeply aware of and greatly in admiration of 
your technical background.
    We do test all equipment against DOD [Department of 
Defense] standards. And I would imagine your question would be 
what are those standards as I am sure you appreciate that that 
is classified material but we would certainly be able to and be 
happy to discuss that with you in a classified environment, or 
any other member.
    Mr. Bartlett. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank the gentleman.
    The gentleman from Texas, Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman.
    Mr. Secretary, Chief Casey, thank you so much for joining 
us today and there is no question that the right choice was 
made when the Secretary was elected. We served together for 
many years and we traveled to many places around the world. I 
will keep quiet, okay. And we went to see the troops to see 
what their needs were and not only those of the troops but of 
their families as well.
    So congratulations and there is no doubt among the members 
of the committee that you are going to do an outstanding job. 
Thank you so much for joining us today.
    General Casey, due to the current demands on the force you 
have said that the Army's readiness posture is out of balance. 
And that has been brought up during this testimony today. And 
that the Army is not ready to meet other large-scale ground 
combat contingencies as fast as plans require.
    You also have stated that the Navy and the Air Force can 
provide forces to mitigate the late arrival of Army forces in 
some of these scenarios. As you all well know that everything 
revolves around the readiness of our troops.
    One of the things that come to mind is if we do that we 
have to worry about the sustainability that we are able--to be 
able if those troops are waiting there for help that they can 
sustain themselves and defend themselves. Another thing that 
worries me is the pre-positioned stock, that we are very well 
stocked so that our troops would not be lacking equipment, 
ammunition, and so on and so forth.
    However, given the declining state of readiness of the Navy 
and the Air Force, are you still confident of the assessment 
that was made? And if not, how can we help? What can we give 
you so that we can be more ready to defend our positions when 
we do take command and control? Any one of you that would like 
to answer the question. Thank you, sir.
    Secretary McHugh. Go ahead.
    General Casey. Congressman, thanks. Couple of points that I 
talked about in my opening statement that get at some of your 
concerns. First of all is reset and the continued funding for 
reset, as I said, is absolutely essential to the long-term 
health of this force. And aviation vehicles and the $10.8 
billion in this budget keep us in the right direction. I worry 
over time that people, as we decrease the number of soldiers 
people will think about reset in different ways but it is 
essential that we sustain that.
    The other thing I would tell you on the readiness to commit 
forces for other things. That is why it is so important that we 
complete the move of the Army to this rotational model. And in 
this rotational model readiness will be progressive. And when a 
unit is available they will be fully ready. Manned, trained, 
equipped.
    In the next phase, when they are in their training phase, 
they will be manned and equipped at a level sufficient for them 
to complete the training phase and to deploy rapidly if there 
is a contingency. We don't have that capability now.
    And then lastly, when they are in the reset phase, we will 
have no readiness expectations. They have six months to 
basically recover themselves and their equipment, to put 
themselves in a position where they could begin to train for 
something else. And so that is the whole rotational cycle and 
readiness model that we are moving to. And I do believe that it 
will allow us to meet the current demand and to provide forces 
to hedge against the unexpected contingency.
    Secretary McHugh. If I could add, Congressman Ortiz, the 
budget contains over a $102 billion dollars over the next five 
years to build on those readiness components, to restock the 
forward deployed pre-positioned stocks, et cetera et cetera. 
And that begins to take the Army from start to finish it is 
about 80 percent.
    We rate the readiness on equipment right now. That will 
begin to build it up into the mid-80s and it will take time. It 
is hard to maintain that when you are at war. But we think this 
budget gives us the opportunity to head out in the right 
direction.
    Mr. Ortiz. My time is up. Thank you so much. Good to see 
both of you.
    The Chairman. Thank the gentleman.
    Gentleman from Virginia, Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman. And Mr. Secretary and 
General, we have heard a lot of accolades today and all of them 
are well deserved. And can't tell you how much confidence it 
gives us sitting over here to know that we have two individuals 
with the kind of integrity and competence that both of you 
bring sitting on that side of the table.
    One of the things that often bothers me though is that 
there are a lot of accolades we are not able to give to people 
in serving in the Army because they are not here. I still think 
some of the unsung heroes that we have are the people that deal 
with logistics.
    And I just want to compliment both of you for the great 
work that the Army has done logistically across the wars that 
we are fighting. I think when all the smoke clears that is 
going to be one of the great stories that we write, 
particularly in Fort Lee. You have done a wonderful job down 
there in standing up the new Logistics University. And I just 
want to compliment you and all the people that serve in that 
area.
    I just have one specific question. And this is something 
you may have to get back to me on. But the Army has a 
requirement for lightweight body armor. But none of the 
services have yet solicited for lightweight body armor to my 
knowledge. The Section 216 of the Fiscal Year 2010 NDAA 
[National Defense Authorization Act] required that the 
Secretary of Defense ensure that within each RDT&E [research, 
development, test, and evaluation] account of each military 
department a separate, dedicated program element is assigned to 
research and development of individual body armor and associate 
components. The P.E. [program element] as far as I know has not 
yet been established.
    As you know, we have got a lot of these companies that 
really came to bat for us when we needed them to produce, you 
know, some of these products. And so my only question to you, 
and I don't expect you to have answer today--you might have 
one--if we can just make sure that the Army complies with that 
fiscal year 2010 provision and establish that separate P.E. for 
a robust research and development of lightweight body armor 
because we want to make sure it is available and there for our 
troops when we need it and----
    Secretary McHugh. I appreciate your allowing us some 
flexibility there, Congressman. We will certainly check on 
that. I have been up to Aberdeen, and I know our friend from 
Maryland is familiar with that. But I think you are correct. 
The major focus is on the more protective plates we are issuing 
in the theater. But we will check on the NDAA requirements 
under that section and try to get back to you.
    [The information referred to was not available at the time 
of printing.]
    Mr. Forbes. Good. And with that I just thank you for what 
you are doing. And Mr. Chairman I yield back the balance of my 
time.
    The Chairman. Thank the gentleman.
    The gentleman from Arkansas, Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman. Thank you, gentlemen, 
for being here.
    My friend, Mr. McKeon in that last several hearings in his 
opening statement first time when we were talking about ``don't 
ask, don't tell'' he used the phrase a special interest, which 
I found perplexing. In the second hearing he used it, I found 
it irritating. And being used today, I just find it plain 
wrong.
    And you know, the thousands of men and women, gays and 
lesbians that are serving honorably today that want to be able 
to put down the next of kin to be notified in case of their 
death. They are not a special interest. They are patriotic 
soldiers.
    Or the thousands of men that are serving honorably that all 
they want to do is to know that they can talk about their 
personal life, the things that go on back home when they are 
deployed. They are not a special interest. They are patriotic 
Americans serving in the military.
    So I think we need to conduct this debate respectfully of 
all sides and recognize that these thousands of men and women 
that are serving, we ought to not try to denigrate them by 
referring to them as a special interest. They are our soldiers 
and airmen and sailors.
    The topic has come up, General Casey, about this issue of 
moratorium. I understand Senator Levin's goal. I think that if 
you are going to do a moratorium, you might as well just do the 
repeal and move ahead. I mean, that puts you all in kind of a 
strange situation that you would have a waiting list for people 
to be bumped out if somehow it doesn't get repealed.
    But you also have this muddled up situation I am sure 
familiar with by now, the Ninth Circuit case, which I have 
talked about here in the last several hearings that has 
conferred constitutional protections on gays and lesbians who 
are in Oregon, California, Washington, or Idaho. And it already 
is a muddled up legal situation for you.
    And we all know you have commanders out there that are 
looking the other way because they have troops that are gay and 
lesbian, are doing a good job and so that already creates this 
situation where we know you have people in the military.
    I have two specific questions for you, General Casey. One, 
the topic has come up. How are gays and lesbians going to be 
able to participate in any kind of a study? I asked that 
question yesterday and Secretary Mabus said he thought they 
would come up as being constructed some way where they could 
participate anonymously.
    And I don't see how some kind of an anonymous statement 
from gays and lesbians who are full bird colonels or even 
general officers would have the same impact as you sitting down 
with a heterosexual folks who can express their views more 
fully.
    My staff, as I was heading out the door, stuck this mask in 
my hand that suggested perhaps we could have Army-issued masks 
for people. I think they were secretly trying to get me on 
Daily Show with Jon Stewart and hoping I would wear it. But I 
just don't see how you can have that kind of full discussion 
you want when the gays and lesbians in the military are going 
to not be able to express the kind of view and give you idea of 
what it is like. So I would like your comments there.
    I would also like your comment on the following question. 
As I hear this discussion about readiness, and the discussion 
about readiness really started in the early 1990s when this 
policy was put in. I would like to hear your response to 
leadership. It seems to me, General Casey, I have more 
confidence in your leadership skills than you do. Or Admiral 
Mullen has more confidence in your leadership skills than you 
do.
    Because when you have--there are thousands of gays and 
lesbians serving but they are such a small minority of the 
force. All they want to do is to be able to do their job, get 
in their 20 years or longer time after that if they have the 
skills and ability.
    It is difficult for me to see how with your leadership 
skills and the incredible leadership we have in the military 
today that somehow that group of people having a shift in their 
legal situation in the military would somehow cause a decrease 
in readiness, unless the leadership skills at the highest 
levels of military leadership are not what I think they are.
    So we throw out this phrase of this negative impact or 
potential negative impact on readiness. Why is it that I have 
more confidence in your leadership skills than you do?
    General Casey. Senator, excuse me, Congressman. It is that 
time of the year.
    Dr. Snyder. About 8 or 10 months from now, it is going to 
be neither one so go ahead.
    General Casey. It will be an issue of leadership. But as I 
mentioned, I have concerns. And the fact of the matter is we 
haven't looked at this in 17 years and we don't know the 
impact. And we are in the middle of a war and it is my 
responsibility to provide the Secretary of Defense, President, 
and Congress my views on the military effectiveness and 
readiness of the Army.
    I don't know the answer to that, to the question on 
readiness. And when I do and I have informed myself and 
informed Congress, then I will lead. But I find it difficult to 
lead at the level that I am informed at currently.
    Dr. Snyder. My time is up but I have great confidence in 
your skills, General Casey and----
    Thank you, Mr. Secretary.
    The Chairman. Mr. Conaway, please.
    Mr. Conaway. Thank you, Mr. Chairman. Appreciate that.
    Gentlemen, thank you for being here. General Casey, thanks 
for bringing great examples of why we all want to do this and 
do it right with those four soldiers behind you and the wife 
that former soldier. Thank you for bringing them to us today to 
let us see it. It is important.
    My issue is going to be very mundane. It is not very 
glamorous. But it reaches across everything you do, both of 
you. And that is financial systems, internal control systems, 
and the auditability of all the data and things that you guys 
make decisions with is currently you can't do it. Department of 
Army does not have audited financial statements. And for lack 
of a broader description let's just say that because it is a 
broader issue than that.
    John, you mentioned responsible stewards of the taxpayers 
dollars. We can't be as good as responsible stewards if we 
don't know everything we ought to know and the systems aren't 
there. I am pleased with the acquisition process review that 
you are doing because this goes hand in hand with that process. 
And it is not going to be easy. It will require tough 
decisions. It is going to require some tie breakers and that is 
what, General Casey, you do everyday is you have got competing 
interests within the team and you have got to make a decision. 
That is going to have to happen as well.
    And so basically what I would like to hear, a couple of 
comments from you about the importance of this issue to the 
system--the level of involvement that you sense that the 
Business Transformation Agency, which has the unenviable task 
of having the responsibility to get this done and no authority 
to get it done. They basically have to cajole the folks in your 
teams to make that happen.
    But every dollar that gets saved goes to sustaining 
families. It goes to reset and it goes to modernization as 
opposed to maintaining archaic legacy, out-of-date systems 
that, because folks are comfortable with them, they defend. But 
we could do all of that work much better, much more efficiently 
than we are doing it but it is going to require protracted 
effort to get it done. So comments from both of you about that?
    Secretary McHugh. If I may start. You know, the chairman 
graciously asked me what I was surprised about. I gave the 
answer on the civilians--that I was more than a little 
surprised when I found out you couldn't audit the Army.
    Mr. Conaway. You are not alone. Nobody can--the Navy and 
the Air Force aren't auditable either but the Marines have 
taken the task of getting it done.
    Secretary McHugh. Well, I will stick to the Army wing at 
the Pentagon.
    Mr. Conaway. Sure.
    Secretary McHugh. But it is something we are focused and 
you mentioned a number of the components. So this Congress 
directed us and I think wisely so to create a chief management 
officer, the CMO, which is by law the Undersecretary of the 
Services. I have taken the steps necessary to execute the 
stand-up of that.
    We are fortunate, very fortunate to have a very able Under 
Secretary Dr. Joe Westphal who has actually been in the 
building before, served as Acting Secretary and knows the 
building and knows the challenges. And we are setting up the 
Office of Business Transformation. I have executed the 
documents for that. So I think that kind of professional 
leadership is a critical first step.
    Beyond that, our FM&C [financial management and 
Comptroller]--we just got a new ASA, new Assistant Secretary of 
the Army, Ms. Matiella and she is focused on this like the 
proverbial laser and her Principal Deputy, Bob Speer brings an 
enormous wealth. And that is his objective to try and work 
through and bring auditable systems into the Army. We are 
working with Bob Hale, the Comptroller of DOD to try to improve 
our internal control and processes. It is called the GFEBS 
[General Fund Enterprise Business System]. It is a general fund 
system.
    We hope to have that set up by 2012 that will start to 
harmonize ourselves with regular accounting systems. We are 
trying to bring an integrated personnel pay system into effect. 
Just overall internal controls that I would defer to your 
expertise, sir, as I understand it. We will bring us in line to 
auditability, although it is a long, long road. But we are 
breaking out toward it, and I am to this 5 months into the job, 
I think we are on the right track.
    Mr. Conaway. General Casey, any thoughts?
    Secretary McHugh. If I could, Congressman?
    Mr. Conaway. Sure.
    Secretary McHugh. The systems are important but the mindset 
is also important. And about 2 years ago I started sending flag 
officers, one and two stars to University of North Carolina 
business school for a week to change their mindset. To get them 
more involved in thinking about cost and thinking about 
benefit, and then thinking about overall value. And we have 
been embarked on a program to grow an enterprise approach 
inside the Army so that we can reduce our spending and take the 
money that we do spend and get most value to the Army.
    Mr. Conaway. Thank you, Mr. Chairman. I hope to be here a 
long time gentleman to continue to niggle you about this deal 
because it is important. Thank you for being here today. Yield 
back.
    The Chairman. I thank the gentleman.
    Gentlelady from California, Susan Davis.
    Mrs. Davis. Thank you Mr. Chairman. It is good to see both 
of you here and we certainly appreciate your comments. I know 
that you are very concerned about the flexibility that you have 
in the balance. And I hope that we can continue to work through 
that because, as you suggest, there are many risks that you are 
still trying to balance out there.
    What I appreciate is that so much of your focus is on the 
men and women who serve and their families and the role that 
they play. And I continue to want to work with you on that. I 
wanted to follow up for just a brief moment on the issue that 
we are looking at in terms of ``don't ask, don't tell'' and the 
year or the time that we are going to take to try and look at 
this issue. And particularly General Casey, what do you hope to 
learn from that? And what is it that you think will most inform 
you?
    General Casey. Senator I think the three elements of the 
Secretary's program are exactly what we have to inform 
ourselves about.
    First of all, we have to hear from our soldiers and 
families. We need to get a better understanding of where they 
are on the issue. We don't know that now. I mean as you can 
imagine we go around the Army, we talk to groups, we form our 
views but it is not something where I am comfortable enough 
looking at the Secretary of Defense and the President in the 
eye and say we shouldn't do this or that. So the first is 
getting the views of the soldiers and families on this.
    Second is understanding all of the implications of 
implementation. We need to understand them so--because I think 
some of the implementation, if it can be mitigated----
    Mrs. Davis. How, I guess, how do you hope to get to that? 
And I think also in terms of trying to understand the issues 
from the men and women who serve's point of view. Is it through 
questionnaires that we hope to get that information?
    General Casey. I don't----
    Mrs. Davis. I am just trying to get a handle on it so we 
can respond better.
    General Casey. I think you understand--that the Secretary 
has put the Honorable Jeh Johnson and General Carter Ham in 
charge of this. They are working the modalities of this now. I 
would assume it would be some surveys. Probably some online 
surveys and things like that. But I don't know.
    And the last thing, when we inform ourselves on where the 
soldiers and families are and on implementation that will give 
us the sense of what the impact on readiness and military 
effectiveness will be.
    Mrs. Davis. Okay. Thank you. I hope that you will have the 
opportunity to bring whatever tools, personnel to make certain 
that your perspectives and others' perspectives are part of 
that discussion because we need to know really what is the most 
salient issue.
    And in the past when we have changed policies is that the 
way that we have done necessarily and how--you know, how 
compelling is that in terms of the way that information comes 
back. I think we just want to be sure that people have faith in 
it, that they believe that that is the best way to try and 
obtain that information. So I appreciate that.
    I want to turn to another issue of controversy, if I might. 
And as you know, the DOD recently notified Congress that the 
Pentagon is removing the ban on allowing women to serve on 
submarines. And at the same time we have female Marines 
stationed at Camp Pendleton who are receiving training as part 
of the frontline engagement in Afghanistan.
    You recently stated, General Casey, that you believe the 
Army should take a look at what women are actually doing in 
Iraq and Afghanistan and then take a look at our policies. In 
your opinion, how vital are women in the war efforts that we 
have in Iraq and Afghanistan today? And what does the Army need 
from us, from the Congress to help the Department reassess the 
role that women are playing in today's Army?
    General Casey. Thank you. Obviously women are an integral 
part of the force. And so they are integral to everything that 
we do. And we have a process where we, about every 3 years, we 
periodically go back and we look at the policy.
    We, Secretary McHugh and I, have been kicking this around 
for awhile and I am sure he will want to comment on this in a 
second. But we in our policy some years ago, we went beyond 
what the Department of Defense has said in terms of 
participating in units that participate in ground combat. And 
we have added a restriction on co-location with units who 
participate in ground combat because of what is going on in 
Iraq and Afghanistan, I feel it is time to go back and re-look 
at that co-location provision.
    Secretary.
    Secretary McHugh. If I just may--General is absolutely 
correct. This is something we have been talking about since 
soon after I walked in the building. I was surprised to find 
out that the Army did have a more restrictive policy than DOD 
recommendations. Not that we weren't allowed to do it but it 
was unnecessary.
    And the question we have again as the Chief indicated, does 
it work? Does it match up with the reality of today's 
battlefield? So we met yesterday with the G1, the personnel 
head. New on the job, General Bostick, who is carrying forward 
this study that we do every 3 years to look at the MOSs 
[military occupational specialties] and matches against women 
serving in the United States Army. And when we get that back we 
are going to take a hard look to try to realign ourselves with 
reality, whatever that may mean. We need to see the study.
    Mrs. Davis. What do you think that timetable is going to 
be?
    Secretary McHugh. I expect we will have it no later than 
early fall. I would hope it would be quicker than that.
    Mrs. Davis. We would love to follow up with you on it. 
Thank you.
    The Chairman. Thank the gentlelady.
    Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman. And thank you for 
being here today and for your service to our country. I would 
like to ask a question that we have already had conversations 
on and that concerns the combat aviation brigade situation in 
our country and specifically as relates to Fort Carson in my 
district.
    The 4th ID [infantry division] is stationed there, the only 
infantry division without a combat aviation brigade in the 
Army. Now the Army budget request supports the addition of 2 
new CABs [combat aviation brigades], a 12th in the fiscal year 
2011 budget and a 13th in fiscal year 2015. And the Army 
indicates that the existing assets will be used to create--well 
anyway, I will go on.
    What criteria is the Army applying to determine where to 
locate these new combat aviation brigades? And when do you 
expect to make a decision regarding where they will be located?
    Secretary McHugh. As we discussed when we appeared before 
the Senate between Senator Udall who remarkably shares your 
perspective on this and Senator Begich from Alaska who has a 
somewhat different perspective. We are trying to work this 
through on a--normal parameters by which we base, not just CABs 
but Army assets anywhere. In other words, how does it 
facilitate training?
    What if, any effect is placed through deployability, the 
training opportunities, lack or presence thereof, encroachment, 
freedom of flight, et cetera et cetera. Those are evaluative 
systems that have been employed for quite some time and we are 
engaged on that right now. I am not aware that we have a 
specific timeline.
    Obviously the 12th CAB has more immediacy and concern than 
the 13th. The 12th is being formed out of available Army 
assets. It is not a new acquisition program. So we want to be 
able to move forward with that fairly quickly.
    That is, as you know, a very high demand and low density 
capability that we want to grow. The 13th will be further out 
and we have not even begun the process as far as I am aware of 
stationing decisions but the 12th is underway. Again, I would 
defer to the Chief. If we have an established deadline on that 
stationing, I am not aware of it.
    General Casey. No, I think it is sometime within the next 
60 days though.
    Mr. Lamborn. And you will keep us posted on how that 
develops?
    Secretary McHugh. We have a system of IMCs [information for 
Members of Congress] that we absolutely will, sir.
    Mr. Lamborn. Okay, well I appreciate that answer. And in a 
sort of related vein, in light of the recommendations in the 
QDR that the Department is reevaluating its force structure 
requirements, particularly in the European theater. At this 
point in time we have not changed our--well, anyway. There are 
two BCTs there in the European that are going to be 
transitioning back to the United States. How is the status of 
that looking and what are your thoughts as far as going forward 
on those European BCTs?
    General Casey. The QDR pushes the decision on that back 
until after the NATO [North Atlantic Treaty Organization] 
discussion on the strategic concept. I expect that to be done 
sometime in the fall.
    Secretary McHugh. Just for the record, that is not an Army 
decision. The basing, should they be redeployed back, and we 
are still programming for that return, just so we are prepared 
for whatever decision comes down, is our decision. But the 
actual redeployment decision is not Army. It is DOD.
    Mr. Lamborn. Okay. Thank you once again for being here and 
for your service. And Mr. Chairman, I would yield back.
    The Chairman. Thank you, gentleman.
    The gentlelady from California, Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman. And thank you to both 
of the gentlemen before us today once again for your service to 
our country. I had to step out for awhile so I am sure, I know 
that some people have asked some of the questions that I had. I 
just wanted to sort of reiterate a couple of things and then 
ask one particular question. We started out when Mr. Bartlett 
asked about the body armor. And I think that is an incredibly 
important issue. I know that I worked a lot--we have several 
manufacturers in California with respect to body armor.
    We work a lot, in fact we are doing a pilot body armor 
issue with our law enforcement to have them have armor with the 
weight across the shoulders as we do in the military because it 
is pretty important with respect to health issues that are 
going on. I just wanted to reiterate how important.
    And every time that I have gone out, and I have recently 
visited Afghanistan and I have talked to our soldiers out 
there. They talk about the weight of everything that they have 
to have on them. I know the minimum weight for example on a law 
enforcement officer, and believe me the minimum. There is a lot 
more that gets attached to that person. It is 38 pounds.
    So I am sure in the military when you start to talk about 
carrying around rifles and everything it is probably closer 
into the three--possible three figures. So again, body armor 
incredibly important. And I will admit. We have factories that 
we are running at three shifts who are now running at one shift 
because there isn't the type of procurement going on.
    And I will also remind you that the conditions of Iraq, the 
heat, exposure, et cetera, makes that body armor deteriorate in 
its effectiveness after awhile. So please, this committee has 
been very interested in body armor from the very beginning. It 
is one of the lifesavers we have out there and we really want 
you to make sure that you get a budget and the procurement for 
that.
    Also, the M4--I don't read blogs but my staff has looked at 
blogs by our veterans who come back. And I can't tell you how 
every other one is about my M4 jammed. And we know we have seen 
tests where there is an effectiveness of less jams by other 
manufacturers. So we really need to dust off that RFP that was 
done, you know, 5 years ago and 1 year ago. And let's get 
this--our act together and let's look for a weapon that doesn't 
jam on our soldiers.
    I also had spoken to you, Mr. McHugh, Secretary McHugh 
earlier about the sexual assault language that you and I had--
you so graciously allowed me to work on and shepherd through. I 
know that we have some problems with some of that and I would 
like to work with you, as I said, this year to try to ensure 
that nobody is being assaulted in our military, mostly women, 
of course.
    And I guess my last question for you would be back to this 
issue about Afghanistan and the plus-up that is going on with 
troops out there. A comment by our President that he thought we 
would be withdrawing them, these new troops, this surge within 
18 months. Can you speak a little to how you think things are 
going in Afghanistan and whether that 18 months down surge or 
bringing back of the troops could really happen? And I will 
leave it to either one of you, probably the general.
    General Casey. Okay. On the surge, we have already begun 
moving the forces in there, into Afghanistan. And we would 
expect to close those forces here probably by the end of 
August. You also recall at the time that the policy was changed 
there was a discussion about when and how many of the troops 
would begin withdrawing. And it was said that it would be 
conditions-based and it would be appropriate to the conditions 
on the ground. And so I don't think there is an expectation 
that all of the forces going in in the surge would start coming 
out next summer.
    Ms. Sanchez. Well, there may not be an expectation among 
you who have been sitting in the room. But I will tell you, I 
think there is an expectation by the American people. And I 
think one of the ways this 30,000 new troops into Afghanistan 
was sold was that we would get them in right away, within 6 
months I believe was said, and you are telling me in August 
that is beyond the 6-month period. And then start a withdrawal 
within 18 months.
    So I mean, this is not the first time I have asked this 
question. But I want to put it clear on the table that I think 
our troops are going to be there a lot longer and Americans 
need to know that given the economic and financial constraints 
that our individual families are feeling.
    General Casey. Yes. And I would just say that there still 
has been no change to policy that the withdrawal would start 
when it was----
    Ms. Sanchez. Policy is one thing.
    The Chairman. I thank the gentlelady.
    Ms. Sanchez. Perception is another, General. Thank you.
    The Chairman. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Mr. Secretary, General Casey, thank you so much for joining 
us today and thank you for your service to our Nation.
    You know, today I think we are all concerned about the 
capabilities that our warfighters carry to the battlefield with 
them. I know one of the challenges you all have is the 
transition from the future combat systems to the Army brigade 
combat team modernization. And I am just wondering, you look at 
the FCS technologies that have been developed and my curiosity 
is the transition that is happening between FCS and the brigade 
combat team modernization programs.
    And an issue many of my colleagues and I are concerned 
about is the impact on the Army's operational concept, force 
structure, and doctrine. And within the FCS or the brigade 
combat team modernization effort, I am also interested in 
hearing your thoughts on the unattended ground sensor 
development program.
    I want you to know I fully support any effort that puts 
these mature, enhanced capabilities into our combat units as 
soon as possible. And I believe the Army should pursue the most 
cost-effective methodology prior to making full-rate production 
decisions. However, I do have some concerns.
    As you know, the most recent Army field range tests, I 
understand that the program is behind schedule and not 
performing very well. In fact, January 21st, in Congress Daily 
it stated that unattended ground sensors do not meet the Army's 
reliability requirements, a fact that could adversely affect 
operational effectiveness and increased life-cycle cost.
    And as you know the fiscal year 2010 NDAA directs the Army 
to provide a report to this committee by March 15th of this 
year. And this report could address the potential business case 
analysis for or against multi-source procurement of FCS 
unattended ground sensors prior to making a full-rate 
procurement decision.
    And within that context, General Casey, has the Army 
completed that report and do you expect it to be delivered on 
time? And what do you think will be the results of the business 
case analysis? And also, it seems like to me that it would just 
make good sense for the Army to integrate the so-called current 
force unmanned ground sensor into the development program and 
to have a full competition prior to reaching any kind of 
procurement decision. And I want to know if you would agree 
with that particular scenario?
    General Casey. Thank you. First of all, on the transition 
from the future combat systems program, I think it is important 
for folks to recognize that the majority of that program, with 
the exception of the manned ground vehicle, did transition 
forward and continues. And the network work that was done is a 
major part of our effort as are the capabilities packages. And 
the things you are talking about, the unattended ground 
sensors, are part of those capabilities packages. We have 
expanded what we put in these capabilities packages to include 
things that are proving useful to the current force.
    And as I said in my opening statement it is part of our 
attempt to put as much equipment into the force as rapidly as 
is ready. The unattended ground sensors did have reliability 
problems during the last test. And they are also just--they are 
a bit heavy, a bit heavier than we wanted. And so we are 
looking at them and we are looking at other alternatives.
    I mean one of the things, Chairman, that I talked about in 
my testimony was about technology advancing so fast that we 
have to proceed incrementally. We have been developing these 
sensors for a long time. And as we have been doing that others 
have come along and developed sensors that can be smaller and 
may be as effective. And so we are going to incorporate some of 
those into our tests to make sure that we get the best value 
for the Army.
    Secretary McHugh. If I could add, you know those were 
initial unit testing. And they were the first round. And 
actually they are intended to and generally be bad news stories 
so we can learn a way to go forward. I was the ranking member 
when Secretary Gates pulled the plug on FCS. And he called me 
and frankly I wasn't surprised but I was disappointed.
    But he made a commitment to take and refinance and 
recapitalize the spinouts. He promised money and he has been 
good to his word as has the President and provided us $934 
million just this year to work on the development of the ground 
combat vehicle. So I think this is a lemons to lemonade kind of 
story if we can continue forward because the Army has to have a 
credible modernization strategy and we have to prove we can do 
it.
    Mr. Wittman. Secretary, one question on a little bit 
different issue. I know as we transition, move units around, 
relocating units around the country, obviously BRAC puts a 
number of those efforts in place, the BRAC from 2005. And the 
Department programmed $73 million in fiscal year 2011 and $65 
million in 2010.
    However, at the end of the year 2008 the Department 
indicated that $1.4 billion is required to complete their 
environmental remediation activities there for BRAC. And I 
understand the Army is making its best effort to conduct 
environmental impact statements to ensure local communities 
aren't adversely affected.
    And as you know, I represent the district where we have 
Fort A.P. Hill located and there has been the movement of the 
EOD [explosive ordnance disposal] facility there. There is some 
concerns about folks there in the community about making sure 
that environmental impact is well understood and well taken 
into account as far as that movement.
    And we all want to make sure we got that school there, that 
capability because IEDs [improvised explosive devices] we know 
are a big issue today. I was just wondering what other steps 
are being taken on a larger scale with the Army to remedy 
concerns about BRAC moves and environmental impact concerns of 
local communities? And do you know will there be any additional 
resources to complete your BRAC moves at the statutory 
completion date of September 2011?
    The Chairman. Can you answer very briefly?
    Secretary McHugh. Yes. We feel we are sufficiently 
resourced to pull through by September of next year what you 
rightly described as the largest BRAC in the history of BRACs. 
It is bigger than all the others combined but we are on time 
and on target. The stewardship of communities affected by 
moving, particularly on environmental issues, is something we 
take very seriously. I want to make sure we are working with 
communities. And if we are not meeting that expectation that is 
something I need to hear about and I promise you we will try to 
make it right.
    Mr. Wittman. Thank you.
    The Chairman. Thank the gentleman. I am told that we will 
have one vote in the very near future, but let's roll on.
    Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    And John, congratulations on the new job. It is well 
deserved.
    General Casey, as always, thank you for what you do and 
your willingness to stay in touch with us.
    John, 2 years ago we were in the middle of a crash program 
to build MRAPs. Now we have the great luxury of bringing them 
home from Iraq. But we are still training people to go to 
another war and another place and it is my understanding that 
almost every one of our training installations is short on 
MRAPs as far as training.
    My Camp Shelby has 18 to train approximately 5,000 troopers 
on a given day. That is nothing more than show and tell. So now 
that we have this luxury of an excess of MRAPs in Iraq I would 
ask that you give serious consideration as getting as many of 
those that you don't need in Afghanistan to the training 
installations so that we do fight as we train.
    Secretary McHugh. That is something, in fact, the chief and 
I discussed just yesterday with the G3 General J.D. Thurman. 
And we do have training packages, about 85 MRAPs in CONUS 
[continental United States] that we are utilizing in addition 
to those available on a base by base basis. But we recognize we 
need to do better. As I know you understand, sir, we are 
flowing everything into theater to protect those troops and to 
build that up. But the next absolute essential component of 
that is to provide sufficient training bases here at home.
    Mr. Taylor. Secondly, recent visit to Balad. A particularly 
honest National Guard colonel tells me that he held an amnesty 
day. Doesn't care how it got to Iraq, if the government paid 
for it, you can turn it in, no questions asked. He had a two-
mile long line of vehicles, generators, everything under the 
sun. In fact, he cut it off when it got to when the line got 
two miles long.
    Having sat in this room and knowing how difficult it is to 
get the dollars from our colleagues to buy those things, I 
would ask you now in this capacity to do everything we can to 
make sure that they all return to good use, either inside the 
United States Army, the Army National Guard, the Army Reserve, 
a fellow service, or made available to local communities.
    And I told General Casey this. He doesn't need to ship 
anything to Afghanistan that is not going to work for at least 
a year. I understand that the costs of getting it there are 
enormous. But for our local communities whether it is a 
blizzard in New York, a hurricane in Mississippi, they don't 
need a generator that is going to run for a year. They need a 
generator that is going to run for 3 weeks.
    But for 3 weeks until the power is restored, they really 
need it. And so I would hope that given the vast amount of 
expertise that you have in your force, people who held elected 
office either as a country supervisor or road crew, chief or 
emergency responder back home, that you make every effort to 
find just enough people in Iraq to go through what is being 
turned back in.
    And if the Army doesn't need it, the military doesn't need 
it, let's make every effort to make it available to our local 
communities who could use it, and we both know they are cash 
strapped in today's environment.
    Secretary McHugh. As someone who started in local 
government, I fully agree and understand. We in fact are 
working to try to integrate a local government and state 
government disposal program. One of the challenges we are 
facing is working through the association that has been stood 
up to represent the local and state governments. They need to 
have some--this is John McHugh.
    They need to have somebody in theater. There is just too 
much of a geographic disconnect for them to try to--ferret 
through all of these platforms so we are working with them. I 
am hopeful, I can't promise, but I am hopeful that is going to 
happen which will greatly facilitate the flow----
    Mr. Taylor. Mr. Secretary, having laid down that challenge, 
anything I could do on this side of the room to help, you let 
me know.
    Secretary McHugh. I appreciate it.
    Mr. Taylor. Okay, lastly, wounded warriors, we have been 
trying--I am not so sure successfully, to get as many as them 
who wish to continue to serve in a different capacity to our 
military academies as gym instructors, as squad level officers, 
plumbers, electricians, whatever their skill is, if they wish 
to remain in the force. But since you have the luxury of two of 
the academies in your home state, and most of them tend to be 
in the north, what I would ask you to consider is expanding 
that program, and this is the Chairman's suggestion, to the 
different ROTC [Reserve Officer Training Corps] programs since 
there are multiple ROTC programs in every state.
    We can get that warrior closer to home as he makes that 
transition from military life to civilian life. Let him 
continue to do meaningful work within the United States Armed 
Forces, but again, it is going to take the intervention of 
someone like you to see to it that this happens. I would ask 
that you give it every consideration.
    Secretary McHugh. Absolutely will. I will tell you I have 
two wounded warriors on my personal staff at the Pentagon. It 
is something we encourage, and we want to try to reintegrate 
those great heroes in every way we possibly can. I think that 
is a very interesting suggestion. I promise you we will look 
closely into it.
    Mr. Taylor. Again, congratulations on the job.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    I hope you will get back to Mr. Taylor on that in 2 or 3 
weeks, and see the status of it. Thank you.
    Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    Secretary, General Casey, thank you so much for coming in 
for your service.
    General Casey, I have got a question about post-traumatic 
stress disorder and the soldiers that are being discharged with 
that.
    First of all, I want to thank you for putting an emphasis 
on it through this resiliency training, and I hope that has a 
mitigating effect on PTSD [post-traumatic stress disorder].
    But my discussions with some mental health professionals 
tell me that it is a reversible syndrome, given the proper 
treatment.
    And so I think, my question to you is, if in fact it is 
reversible, why are we still discharging soldiers with PTSD and 
giving them disability?
    And number two, and this may be beyond your pay grade in 
the sectors as well because I think it goes to the Veterans' 
Administration that I have talked to soldiers that have been 
discharged with PTSD, and that not having adequate treatment 
available to them once they discharge them.
    This is, you know, we have discharged quite a few folks 
with PTSD and not provided adequate treatment to them. I think 
it is unfair to those soldiers, and it is unfair to the 
taxpayers of the United States to have to pay for disability 
payments for a condition that is reversible.
    General, could you answer that, and Mr. Secretary if you 
have any comments as well.
    General Casey. Well, first of all, thank you for your 
interest in this. In fact, we started out back in 2007 to try 
to reverse the stigma associated with getting help for post-
traumatic stress because all our studies said exactly what you 
say. That it is reversible.
    The other thing that our study showed us was that the more 
often you deployed, especially with small times between 
deployments, the more likely you would become to get post-
traumatic stress. And so we felt it was usually important to 
get people to the treatment as soon as we could. So that is the 
first one.
    Second point, we have established resiliency centers on 
several of our installations. The most prominent one being at 
Fort Bliss, Texas, this really was the original one. And they 
take a very small number of soldiers, about 16 to 20, about a 
platoon size with more severe post-traumatic stress, and they 
work with them for periods up to 6 months. And they have had 
very good success.
    But while it is reversible, everyone does not necessarily 
recover on the same timelines or on timelines that make sense. 
So we recognize the challenge presented by this. I think we 
have attacked it aggressively, and in the last part about it, I 
would say, is the resiliency program that I talked about.
    It is designed to give soldiers and family members the 
skills to prevent them from getting post-traumatic stress to 
begin with, and I think that is the only way we are going to 
succeed here over the long haul. One of the principal tenants 
of this program is the recognition that most people--the vast 
majority of people deployed to combat, they have a growth 
experience.
    And there is a misperception out there that everyone that 
goes to combat gets post-traumatic stress, which is not true.
    Secretary McHugh. If I may, it is an absolutely critical 
issue. If you go to any warrior transition unit in this country 
and we have 29 of them, and building 9 more complexes. You will 
find soldiers there who have been diagnosed with PTSD, and we 
provide treatment.
    The challenge we have, it seems to me, is that too often or 
very often, people aren't diagnosed with this and they really 
don't demonstrate symptoms until months after redeployment, and 
they have by their own design processed out of the military.
    That is where the critical challenge is. What we are trying 
to do is educate the force. We are trying to intervene early, 
destigmatize it and provided a continuing of care and treatment 
so that the sooner you get it like most diseases, and it is, it 
is a mental disease that can be treated.
    But there is a stigma and so we are trying to do that. That 
is not to suggest we are doing it perfectly, and I am sure we 
have mishandled far too many cases, but we are getting smarter 
on it and I think we are making progress.
    Mr. Coffman. Well, General Casey and Secretary McHugh, 
thank you so much for concentrating your energies on this issue 
in terms of solving it. I think it is a travesty in the past to 
have discharged so many soldiers for something that is 
reversible.
    And thank you, Secretary McHugh for your explanation, and I 
think certainly the other half of the equation rests with the 
Veterans Administration in terms providing treatment for those 
that are discharged with that.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you. Thank you, gentlemen for being 
here.
    Mr. Secretary, it is wonderful to see you. I know the 
commitment that you have to the military families and you are 
in the right job. We are glad you are here.
    I am disappointed that the Army has not expanded the small 
arms production industrial base to encourage competition and 
give taxpayers a better deal. As you know, Title 10 limits the 
companies allowed to bid on critical small arms components for 
specified small arms to just three companies, and one of them 
is a foreign company.
    Two years ago, the National Defense Authorization Act 
required a report on the small arms production industrial base. 
The report is now more than a year overdue.
    Last year, my language in the NDAA again required the 
report due at the beginning of April and gave the Secretary of 
Defense the authority to expand, modify, or change the 
companies in the small arms production industrial base.
    When can we expect to see the first report which is very 
long overdue? Is the second review on course to be delivered on 
time?
    General Casey. I honestly am not in a position to respond 
to the Defense Department's position on the report. I would be 
happy and will check for you and get you that information, but 
I am sure you understand that that is a DOD equity.
    Ms. Shea-Porter. I do and that is the response I hope to 
hear from you that you would check, so I thank you.
    General Casey. Okay, I can tell you generically we want to 
encourage competition. There is a process by which 
manufacturing firms, writ large, regardless of what platform 
they are interested in participating in, including personal 
arms, can apply for certification and thereafter participate in 
the bids.
    Whether there is a glitch with respect to that particular 
segment, I can't tell you, but again, we will look at that and 
try to get back to you.
    [The information referred to was not available at the time 
of printing.]
    Ms. Shea-Porter. Thank you, I appreciate that.
    And then I wanted to bring up ``don't ask, don't tell,'' 
and I know that you have heard this frequently, but I have some 
concern about how the decisions will be made and what the 
questions will be, and who actually will be making these 
decisions, because I believe that when we have a civil rights 
issue it is something that we have to adhere to a sense of 
responsibility to all the men and women, all of them, including 
those who are gay.
    And we also have to make sure that we don't fit in any kind 
of judgment on anybody regardless of their affiliation, their 
sexual orientation or anything else.
    So, I just wanted to say for the record, and I know that we 
will be studying this, but I want to associate myself with my 
colleague's comments, Mrs. Davis from California.
    And I also wanted to say that I do believe that individuals 
who love this country, serve this country honorably, have given 
their lives to this country, should be held in the same regard 
as everybody else without a sense of judgment from others.
    Thank you, and I yield back.
    The Chairman. Mr. Platts, please.
    Mr. Platts. Thank you, Mr. Chairman.
    Secretary McHugh, General Casey, I appreciate your being 
here today and John, I especially appreciate you being there 
because by you being there, it opened up the seat here for me.
    So I am probably most delighted that you are the Secretary 
of the Army.
    I appreciate your great leadership, and General Casey 
having visited with you in Iraq when you are in command there 
and now as Chief of Staff, both of you are--we are as a Nation 
indebted to both you for your service.
    First issue, and I apologize having to go back and forth 
with other meetings, and if I repeat anything that was already 
asked. But it is specifically the rules in engagement issue.
    In my visits to Iraq, I have been there nine times now, six 
times to Afghanistan, I remain concerned that we are asking too 
much of our men and women in uniform in harm's way, and we 
certainly mourn the loss of every civilian life lost in combat 
operations.
    But I am worried that we are going to a point where we are 
putting our men and women in uniform at greater and greater 
risk, and tying their hands in how we expect them to find and 
defeat the enemy.
    I didn't see the details, but in my morning paper back home 
this morning in New York, I saw something quick about maybe 
prohibiting night time raids now in civilian population areas 
in Afghanistan because of the risk to civilians.
    I am not a veteran myself, but there is one thing I 
appreciate is that the American military owns the night and 
when it goes after the enemy, being able to defeat enemy, our 
advantages at night is huge.
    And so, I guess, I want to just raise that concern with you 
and that we are in a deadly battle here. And those men and 
women who are out there in the front lines deserve to have 
everything available to them.
    I think the analogy to World War II--if we put the 
limitations on our military in World War II that we now place 
on our military, we wouldn't have defeated the Nazis as we so 
successfully did. And so a concern, and I would ask both of 
you, I guess, how do you feel about where we are today with 
rules of engagement, including what I believe is the most 
recent announcement about night operations?
    General Casey. Rules of engagement are put in place by the 
combatant commanders and General McChrystal. I tell you I have 
had this--I get this feedback periodically from Members of 
Congress.
    So I recently talked to General McChrystal about this and 
let him know the concern was out there. Well, he knows the 
concern is there because Members share that with him when they 
are there.
    But he feels very strongly, and I would support this, 
having been in Iraq and having worked with the rules of 
engagement. There is no rule in engagement that prohibits a 
soldier from using all means available to him to protect 
himself. And nothing that General McChrystal has put in place 
takes that ability away for many soldiers.
    It is indeed a complex environment, and I know that there, 
at the lower levels of the force, there are concerns with the 
interpretation. But it is a concern about interpretation, but 
they have the rules to protect themselves.
    Mr. Platts. General Casey, I certainly appreciate that and 
agree with that, but I would contend that if we let the bad guy 
get away because we don't go after him at when we have the 
advantage, that is putting our guys at risk because he is still 
out there, able to come after our guys because of how we tied 
their hands in that sense.
    So, you know, most recently I saw that President Karzai 
made the comment and tragic story of a young girl losing many 
family members in an attack in Afghanistan and holding up the 
picture of that young girl.
    The equivalent would be to hold up the picture of all the 
American children who have given their fathers or mothers in 
Afghanistan liberating that country, defending that country and 
our security here at home.
    And I just worry that the politics of Afghanistan and 
President Karzai's politics within that country are impacting 
the security of our courageous men and women in uniform. And I 
appreciate your conversation with General McChrystal, and that 
is part of high priority for leading our Nation.
    General Casey. I wouldn't want people to leave here 
thinking that the politics there is putting the lives of our 
soldiers at risk. Again, I----
    Mr. Platts. I don't think by you, I mean by President 
Karzai, that he is trying to leverage us by his actions in 
Afghanistan.
    General Casey. Again, I having been where General 
McChrystal is, I know that he feels, and I have spoken to him. 
I know he feels very strongly about making sure that every 
soldier has the ability to accomplish his mission and defend 
himself.
    Mr. Platts. Thanks, General Casey, Mr. Secretary.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Loebsack, please.
    Mr. Loebsack. Thank you, Mr. Chairman.
    Thanks to both of you for being here today in particular 
Secretary McHugh.
    While I am only a sophomore, I got to know you a little bit 
on those first 2 years when I was here and know you and respect 
for everything you have done, and I know you are going to be 
doing a great job in this position, so good to see you there.
    I do first want to highlight the funding that is included 
in this budget for upgrades and improvements to the 
infrastructure at the Iowa Army Ammunition plant.
    It is in my district--the Iowans who worked at that plant I 
think provide a great service to our country, and I am really 
gratified that these investments are included in the budget. I 
want to thank you for that first thing.
    Also, I want to raise an issue that is very close to all of 
us in Iowa and also folks in Minnesota. In fact I think if my 
colleague, John Kline had been here today--he is over at the 
White House dealing with health care issues--if he had been 
here, I think he would have brought up the issue I am going to 
bring up before me.
    And I would have reiterated this issue at that point, and 
that is the issue of the PDMRA [post-deployment/mobilization 
respite absence] benefits for our National Guard. There about 
750 Iowa soldiers who have yet to receive their PDMRA benefits, 
and many of them are now preparing to deploy yet again. In fact 
I just met in the anteroom with our Adjutant General, General 
Orr, about that and other issues.
    I am very glad that the processing of the payments is 
moving forward after nearly 2 years, but I also believe that we 
need to make sure that these payments are processed as 
expeditiously as possible and as accurately as possible so that 
no soldier is underpaid or is forced to repay part of their 
benefit later on.
    So Secretary McHugh, I just want to make sure that you can 
assure me and these troops and their families in Iowa and in 
Minnesota that the Army is doing absolutely everything that it 
can to process these payments as expeditiously and accurately 
as possible. Can you speak to that?
    Secretary McHugh. I can indeed and you can be assured not 
just great Iowans but across this country and you mentioned 
Minnesota, and you are absolutely right. Congressman Kline has 
been understandably very forward leading on this.
    We have a challenge here. The Army is processing as quickly 
as we receive these packages as we call them from the various 
Guard bureaus. One of the hurdles we have to get over is the 
workings with the Guards and the states to validate the 
packages to get them to the Army.
    I have spoken directly to both the chief of the National 
Guard as well as the director of the National Guard. In fact, I 
was talking to the director last evening--all the TAGS, all the 
adjutant generals, from the states and the territories were in 
town this week-- and he has reaffirmed our interest in getting 
those packages as quickly as possible.
    So if you can help us facilitate those transmissions, we 
will get those funds to those soldiers, that as you said and 
you are absolutely right, Congressman, did some hard work to 
earn those benefits and we want to make sure they get them.
    Mr. Loebsack. Thank you, Mr. Secretary.
    Another question I have is about the equipment for the 
National Guard. The budget request does not include any funding 
for the National Guard reserve equipment account. That is my 
understanding at least.
    Meanwhile, the Army National Guard is not currently slated 
to equip all brigade combat teams to 100 percent of their 
requirement until 2015. Can you please explain to me how this 
budget supports both the National Guard's ability to respond to 
their homeland and their overseas missions?
    In the case of Iowa, you may recall, that in 2008 we had a 
great flood and a lot of those National Guard folks did a lot 
of great work in Iowa. So can you answer that question?
    Secretary McHugh. Yes, I have to get back to you on the 
details for the National Guard Iowa component. As I had 
mentioned earlier, we do have over the next five years, just 
over $102 billion scheduled for equipment readiness 
improvements. According to the data, I have been shown that 
right now the National Guard national equipment readiness is 
about 75 percent.
    [The information referred to was not available at the time 
of printing.]
    Secretary McHugh. And once these investments are made, it 
will improve to over 81 percent. So 81 percent is a significant 
distance from 100, we all understand that, but it is something 
that we are trying to turn the tide on and as the drawdown in 
Iraq continues hopefully, successfully, and we can bring troops 
home and redirect investments, that will be an opportunity for 
us to not to continue to burn equipment readiness as soon as, 
with your help, we have been able to turn it out.
    Mr. Loebsack. Okay, thank you very much.
    General Casey. Can I just add one point here on, you asked 
about homeland security. To ensure that the states had enough 
equipment to take care of homeland security missions, we 
established a category of equipment called dual-use equipment.
    It is equipment that goes to the Guard that could be used 
for either wartime missions or homeland security type of 
disaster relief missions. In September, we were about 83 
percent in filling up those dual-use items and we put a 
priority on that.
    Mr. Loebsack. Thank you.
    General Casey. The other thing, the last point I would make 
with you is the National Guard and Reserve will be on the same 
rotational equipping model as the active force, and so they are 
not going to just have a bunch of old equipment as they 
approach and get ready to deploy. They are going to have the 
best stuff that we have.
    Mr. Loebsack. And I would like to say, we don't have any 
large bases on Iowa as you might imagine, right? But we have a 
lot of National Guard troops who are just doing a fantastic 
job, and as it becomes an increasingly operational force, I 
think we need to do everything we can, you know, to take care 
of them, their families and make sure they get the equipment 
they need as well. So thank you very much to both of you. Thank 
you.
    The Chairman. Thank you, gentlemen. Regarding the National 
Guard, I have had the opportunity, the last several weeks to 
visit with Missouri National Guardsmen and two things are very 
apparent. The first is the very positive attitude that each of 
the units had, without exception, and the second was the fact 
that so many of them have been deployed one, two, or three 
times in several units. Nearly everyone had been deployed at 
least once so I hope they get the proper recognition all the 
way to the top, and that is why I am suggesting that.
    Mr. Owens.
    Mr. Owens. Thank you. First, I would take umbrage with 
those who have said they were most happy that the Secretary is 
in that seat. I clearly am the most happy.
    I would like to ask a question that relates to the 
facilities. This year, there was about $500 million shortfall 
in facilities funding and that appears to have been restored 
which is of great benefit to Fort Drum and a number of the 
other installations. Does the current budget take into account 
that situation so that it doesn't reoccur this coming year?
    Secretary McHugh. By current, you mean the proposed budget?
    Mr. Owens. Proposed budget, that is correct.
    Secretary McHugh. And by the way, it is good to see you 
there too. And I appreciate it truly, you are one of the first 
to contact us about the effects of this so called BOS [base 
operation support] funding that caused these challenges. It 
resulted as a result of a required migration from these OCO 
[overseas contingency operations], from the surplus accounts, 
for these base operations into the base budget, and it wasn't 
adequately accommodated for.
    So this gives us another year, by the time this budget is 
adopted and put in place to accommodate that. So I think we 
will be in a much better position. It is important to recognize 
though it is not unusual for an underfunding to happen in these 
budget lines and the reason for that is we simply don't know 
the operations tempo at a base by base to make a full and 
complete judgment. So what we will do this year, and what we 
have always done is to go in midyear, see where the shortfalls 
are, make the necessary adjustments as I said in my opening 
statement.
    Because these funds go right into caring for our soldiers' 
families and we want to make sure that those are not the funds 
that are part of the cuts that probably we are going to have to 
deal with in a broader sense in the years ahead.
    Mr. Owens. Thank you very much and I didn't mean to slight 
you, General, but thank you for testifying and thank you for 
your service. That is all I have. I yield back.
    The Chairman. Thank you gentlemen.
    Wrap it up, Mr. Kissell.
    Mr. Kissell. Thank you, sir, and I want to thank the 
Secretary and the General for being with us and thank you for 
bringing the four individuals that you did.
    And I would like to thank them for their service to our 
Nation and sacrifices and wish them well in the ways they go.
    Being from North Carolina, obviously Fort Bragg is a great 
interest to me and being my district does not include the base 
itself, it includes the majority of the reservation in Camp 
McCall and many of the soldiers and their families that serve 
our base.
    We are also very appreciative of BRAC and what it is 
bringing to Fort Bragg and in Fort Bragg will have 10 percent 
of all the Army and when all is said and done, but with that 
brings challenges too especially in some of the areas 
surrounding the base.
    I want to talk about education for just a second. We talk 
about our families. The children of these families and their 
education has to be upmost of concern and it has been. We have 
done a good job probably on base in getting some new schools 
built, but the surrounding counties don't necessarily have the 
money where they can just go out and build new schools because 
populations are coming in.
    I recently went to Rockfish Elementary School in Hoke 
County which is outside the base, outside Cumberland County. I 
was talking to the fourth graders and asked how many of them 
had either one or both parents in the military, and I think 
three-fourths of the students raised their hands.
    We can't have schools designed for 500 students hosting 
1500 students without a loss of education. This is not so much 
a question but just we have got to find a way to help some of 
these poor counties that are benefiting for new people coming 
in but also having to do transportation, police and fire, water 
and sewage. They are being challenged and education is a way we 
just can't afford to lose out on. So just wondering what your 
thoughts may be on how can we go outside the normal perspective 
of helping off-base school systems?
    Secretary McHugh. That is a question with which I have some 
familiarity and more than a few bruises, and I suspect 
Congressman Owens will soon pick up a few of those himself 
because Impact Aid is the mechanism by which localities are, in 
theory, compensated for this influx of military students and 
there is a variety of programs in that initiative.
    I think there is no question that it has its shortcomings, 
not the least of which in New York for example where the local 
education aid is on a per capita basis. You don't get credit 
for that student being in the seat until at least a year after 
he or she has been there even though you are providing services 
and teachers, classroom space for that student from day one.
    That is set in concordance with law. It is a Department of 
Education program and while the Secretary of Defense has worked 
very hard to try to encourage improvement of all school 
facilities where our men and women in uniform's children are 
being educated. It has been a struggle. There is a good 
substantial amount of investment in this proposed budget for 
schools for DODEA [Department of Defense Education Activity] 
schools, the Defense Department schools over which the Army and 
the Department of Defense has jurisdiction.
    But it is a challenge with the Department of Education 
programs and if there is anything we can do to support your 
efforts to modernize, and I would argue to make that law a 
little bit more reflective of these base BRAC movements, we 
would be happy to talk to you about that.
    Mr. Kissell. Well, I appreciate that. We will be following 
up, and I know time is an issue right now. I congratulate your 
working with the University of North Carolina in the business 
school, but also I was with General Mulholland when he signed 
the letter of the understanding with the university system to 
help our special forces. That is our great systems working 
together.
    I congratulate you on the civil affairs unit with the 
special forces. That is very important and encouraging if you 
look at civil affairs with just the regular army too because as 
we work in Afghanistan and other places making sure that we are 
doing the things with the civilian population there that 
enhances their lives.
    It is so important to what we are doing overall. Thank you 
so much and I yield back, Mr. Chairman.
    The Chairman. Thank you, gentleman from North Carolina.
    Secretary McHugh you are now a veteran. We thank you so 
much for your excellent testimony, and you are in good hands 
there with General Casey.
    And we thank you, General, for your continued service.
    We will be discussing various issues with you in the days 
ahead as we glue our authorization bill together, but you have 
given us an excellent start and an excellent insight into the 
United States Army.
    We thank you. We are adjourned.
    [Whereupon, at 12:45 p.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                           February 25, 2010

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 25, 2010

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T8172.001
    
    [GRAPHIC] [TIFF OMITTED] T8172.002
    
    [GRAPHIC] [TIFF OMITTED] T8172.003
    
    [GRAPHIC] [TIFF OMITTED] T8172.004
    
    [GRAPHIC] [TIFF OMITTED] T8172.005
    
    [GRAPHIC] [TIFF OMITTED] T8172.006
    
    [GRAPHIC] [TIFF OMITTED] T8172.007
    
    [GRAPHIC] [TIFF OMITTED] T8172.008
    
    [GRAPHIC] [TIFF OMITTED] T8172.009
    
    [GRAPHIC] [TIFF OMITTED] T8172.010
    
    [GRAPHIC] [TIFF OMITTED] T8172.011
    
    [GRAPHIC] [TIFF OMITTED] T8172.012
    
    [GRAPHIC] [TIFF OMITTED] T8172.013
    
    [GRAPHIC] [TIFF OMITTED] T8172.014
    
    [GRAPHIC] [TIFF OMITTED] T8172.015
    
    [GRAPHIC] [TIFF OMITTED] T8172.016
    
    [GRAPHIC] [TIFF OMITTED] T8172.017
    
    [GRAPHIC] [TIFF OMITTED] T8172.018
    
    [GRAPHIC] [TIFF OMITTED] T8172.019
    
    [GRAPHIC] [TIFF OMITTED] T8172.020
    
    [GRAPHIC] [TIFF OMITTED] T8172.021
    
    [GRAPHIC] [TIFF OMITTED] T8172.022
    
    [GRAPHIC] [TIFF OMITTED] T8172.023
    
    [GRAPHIC] [TIFF OMITTED] T8172.024
    
    [GRAPHIC] [TIFF OMITTED] T8172.025
    
    [GRAPHIC] [TIFF OMITTED] T8172.026
    
    [GRAPHIC] [TIFF OMITTED] T8172.027
    
    [GRAPHIC] [TIFF OMITTED] T8172.028
    
    [GRAPHIC] [TIFF OMITTED] T8172.029
    
    [GRAPHIC] [TIFF OMITTED] T8172.030
    
    [GRAPHIC] [TIFF OMITTED] T8172.031
    
    [GRAPHIC] [TIFF OMITTED] T8172.032
    
    [GRAPHIC] [TIFF OMITTED] T8172.033
    
    [GRAPHIC] [TIFF OMITTED] T8172.034
    
    [GRAPHIC] [TIFF OMITTED] T8172.035
    
    [GRAPHIC] [TIFF OMITTED] T8172.036
    
    [GRAPHIC] [TIFF OMITTED] T8172.037
    
    [GRAPHIC] [TIFF OMITTED] T8172.038
    
    [GRAPHIC] [TIFF OMITTED] T8172.039
    
    [GRAPHIC] [TIFF OMITTED] T8172.040
    
    [GRAPHIC] [TIFF OMITTED] T8172.041
    
    [GRAPHIC] [TIFF OMITTED] T8172.042
    
    [GRAPHIC] [TIFF OMITTED] T8172.043
    
    [GRAPHIC] [TIFF OMITTED] T8172.044
    
    [GRAPHIC] [TIFF OMITTED] T8172.045
    
    [GRAPHIC] [TIFF OMITTED] T8172.046
    
    [GRAPHIC] [TIFF OMITTED] T8172.047
    
    [GRAPHIC] [TIFF OMITTED] T8172.048
    
    [GRAPHIC] [TIFF OMITTED] T8172.049
    
    [GRAPHIC] [TIFF OMITTED] T8172.050
    
    [GRAPHIC] [TIFF OMITTED] T8172.051
    
    [GRAPHIC] [TIFF OMITTED] T8172.052
    
    [GRAPHIC] [TIFF OMITTED] T8172.053
    
    [GRAPHIC] [TIFF OMITTED] T8172.054
    
    [GRAPHIC] [TIFF OMITTED] T8172.055
    
    [GRAPHIC] [TIFF OMITTED] T8172.056
    
    [GRAPHIC] [TIFF OMITTED] T8172.057
    
    [GRAPHIC] [TIFF OMITTED] T8172.058
    
    [GRAPHIC] [TIFF OMITTED] T8172.059
    
    [GRAPHIC] [TIFF OMITTED] T8172.060
    
    [GRAPHIC] [TIFF OMITTED] T8172.061
    
    [GRAPHIC] [TIFF OMITTED] T8172.062
    
    [GRAPHIC] [TIFF OMITTED] T8172.063
    
    [GRAPHIC] [TIFF OMITTED] T8172.064
    
    [GRAPHIC] [TIFF OMITTED] T8172.065
    
    [GRAPHIC] [TIFF OMITTED] T8172.066
    
    [GRAPHIC] [TIFF OMITTED] T8172.067
    
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 25, 2010

=======================================================================

      
                    QUESTIONS SUBMITTED BY MR. JONES

    Mr. Jones. The FY09 National Defense Authorization Act encourages 
the Army to compete its small arms requirements. Page 201 of the Army 
Procurement Justification Book for Weapons and Tracked Vehicles 
indicates that the Army requests $15.042M to procure 11,494 M4 carbines 
and that the carbines will be procured from Colt Manufacturing Co., 
Inc. with sole source, firm fixed price contract. Is the Justification 
Book accurate? What are the Army's requirements for M4 carbines in 
Fiscal Year 2011 and how does the Army plan to complete the 
requirements?
    Secretary McHugh. Yes, the Justification Book is correct. The Army 
is pursuing a dual track strategy to provide our Soldiers the best 
carbine in the world. Track One is initiating continuous competitive 
upgrades of the M4, and Track Two is the competitive procurement of a 
new Joint Capabilities Integration and Development System (JCIDS) 
requirement for an individual carbine.
    For the funding year FY11, the requested total program funding is 
$20.2M. $15.042M of that will procure 11,494 M4 Carbines equipped with 
the Modular Weapon System, which includes six additional magazines, the 
M4 Rail Assembly and the Back-up Iron Sight per weapon. The remainder 
of the funds procures combat optics and provides production, logistical 
and fielding support.
    In 2008, then Secretary of the Army Pete Geren directed continued 
procurement of the M4 carbine until the Army Acquisition Objective 
(AAO) was met. Once the AAO was reached, M4 procurement would be 
limited to only those M4s necessary to maintain the current fleet of 
weapons. The procurement requirement also includes the minimum required 
to maintain the industrial base until the individual carbine 
competition is complete and in production.
    A quantity of 12,000 carbines is the yearly Minimum Sustaining Rate 
(MSR) for Colt Defense LLC. The Army will continue to maintain Colt's 
operational capability, and does not plan to pursue an M4 competitive 
procurement. The Army will conduct M4 upgrade competitions and will 
compete the new JCIDS requirement for a carbine when the requirement is 
eventually approved by the Joint Requirements Oversight Council.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MILLER

    Mr. Miller. The budget submission for the Army's end strength is 
programmed for 547,400; with an additional funding for 22,000 personnel 
in the OCO. How long will this additional end strength funding in the 
OCO be required? Does the Army intend to ultimately return to end 
strength of 547,400 and is that the end strength envisioned in the 
Quadrennial Defense Review?
    Secretary McHugh and General Casey. The Army's current authorized 
end strength is 547,400, and that is the end strength envisioned in the 
Quadrennial Defense Review. The FY10 Overseas Contingency Operations 
(OCO) funding includes money to support a temporary end strength 
increase of 15,000 personnel (total end strength 562,400), and the FY11 
OCO request includes funding to support a total additional end strength 
of 22,000 (total end strength 569,400). However, the Secretary of 
Defense has not yet authorized the additional temporary end strength 
increase from 15,000 to 22,000. If the Secretary of Defense authorizes 
the additional 7,000 in temporary end strength, the Army's plan is to 
reach 569,400 by Spring of 2011 and maintain that level through the 
Spring of 2012. End strength would then decrease over an 18 month 
period through the Fall of 2013 to put the Army back at 547,400.
    Mr. Miller. The Chief of the Army Reserve recently said that the 
Army Reserve and Army National Guard need at least $1.5 billion more in 
training funding per year to achieve the ``operational reserve'' status 
they have been tasked to achieve. Do you agree with that estimate? In 
the future, will the Army be able to accommodate increased levels of 
funding to keep the Army Reserve and Army National Guard as ready as 
they are today?
    Secretary McHugh and General Casey. The Army is committed to 
maintaining a trained and ready Reserve Component force as full 
participants in the ARFORGEN process. Steady state funding to achieve 
this goal is a topic for our FY12 budget deliberations. We anticipate 
working with the Army National Guard and the Army Reserve to come to a 
consensus position on this issue.
    The Army is currently evaluating the resource requirements to 
achieve an ``operational reserve'' in the FY 12-17 POM. The Army has 
not yet validated the $1.5B training cost estimate and anticipates 
there are cost impacts beyond training that must be evaluated. 
Decisions on fill level for full time staff, funded training days, and 
type of training are factors which will drive the cost of 
operationalizing the reserve component.
    In addition to the resourcing implications, the Army is assessing 
the requisite authorities and policies associated with achieving the 
most effective operational reserve.
    Mr. Miller. What is the extent of the Army's R&D effort to reduce 
the weight of body armor systems? What are your thoughts in 
establishing a task force similar to the MRAP Task Force and ISR Task 
Force to accelerate these efforts?
    Secretary McHugh and General Casey. The Army is looking to lighten 
every piece of equipment a Soldier carries. Accordingly, the objectives 
of the Body Armor R&D projects are to develop a lighter system with 
more protection than what is currently available.
    The Army is focused on enhancing the strength of ballistic fiber, 
which has the potential to reduce the weight of soft armor by 20%, and 
will continue to explore materials to create lighter ballistic plates. 
Most ballistic plate R&D is conducted independently by industry.
    Body armor is not a Program of Record and is therefore 100% funded 
with Overseas Contingency Operations funds with no RDT&E dedicated 
funding line. The 2010 NDAA directed that each of the services 
establish a RDT&E line for Body Armor, which the Army is currently 
working with DoD to establish.
    We do not think a Task Force is required to address the issue of 
lighter body armor. The Army and the Marine Corps Board, which meets 
quarterly, focuses on force protection issues, to include initiatives 
for lighter body armor systems. This group meets to discuss issues 
related to body armor and to leverage production and R&D efforts for 
both Services.
    Mr. Miller. Could you comment on what changes have been made in the 
way the Army equips Guard and Reserve forces to accommodate the 
operational role?
    Secretary McHugh and General Casey. The Army has made tremendous 
strides toward converting the Reserve Component (RC) from a strategic 
reserve to a force that can provide operational capabilities and 
strategic depth across the full spectrum of conflict and missions. The 
new equipping structure--codified by the Army Force Generation-based 
equipping strategy--establishes acquisition and distribution goals that 
ensure all units, regardless of component, have the right amount and 
type of equipment to meet their mission requirements and support 
Department of Defense Directive 1200.17.
    The Army is committed to equipping all Soldiers going into harm's 
way with the most capable systems possible. This equipping strategy is 
designed to equip and modernize the RC on par with the Active 
Component. It should be noted that much of the modern equipment going 
to the RC displaces legacy items, and therefore, has a modest impact on 
the overall equipment on hand (EOH) percentages.
    Modernization percentages are measured against the Army's 
requirements at the end of the Program Objective Memorandum (Fiscal 
Year 2017 (FY17)). The Army has programmed approximately $102.4 billion 
over the next five years to alleviate shortfalls and modernize 
equipment, which is anticipated to bring the Active Army to 86 percent, 
the Army National Guard (ARNG) to 83 percent and the U.S. Army Reserve 
(USAR) to 81 percent EOH by 2017, based on current operational 
requirements.
    Equipment funding for the ARNG averaged $5.7 billion per year from 
FY06 to FY10. During that same time period, USAR equipment funding 
averaged $2.0 billion per year. In September 2010, the ARNG equipment 
modernization levels will be at 68 percent, a 12 percent improvement 
over their September 2008 levels. The Army Reserve is 65 percent 
modernized, an 8 percent increase over the 2008 levels.
    Mr. Miller. Do the equipping and manning strategies for the 
National Guard's new operational role also take into consideration the 
strategic reserve role the National Guard has historically played? For 
example, do National Guard units that are not immediately scheduled for 
deployment have sufficient equipment to perform domestic missions and 
serve as a strategic reserve, should new global demands unrelated to 
the current operations in Iraq and Afghanistan emerge? Are there 
reserve units dedicated to a strategic reserve role and, if so, how are 
they equipped?
    Secretary McHugh and General Casey. The Army continues to improve 
the equipment on hand (EOH) rates and modernization levels of the 
Reserve Component (RC). This is critical to the transformation of the 
whole RC to an operational reserve while simultaneously ensuring that 
it can provide the Army with strategic depth. The Army Force 
Generation-based equipping strategy ensures that the RC can provide 
operational capabilities and strategic depth across the full spectrum 
of conflict and missions, as required by Department of Defense 
Directive 1200.17, dated October 29, 2008. The Army is committed to 
fully executing Congressional and Department of Defense directions to 
operationalize our RC. Consequently, RC units are not specifically 
assigned to a strategic reserve mission.
    Additionally, the Army is committed to allocating and distributing 
Critical Dual Use (CDU) equipment (Modified Table of Organization and 
Equipment items that also support Homeland Defense and Defense Support 
to Civil Authorities missions) to maintain a minimum 80 percent fill 
during this period of persistent conflict, recognizing that the end-
state goal is 100 percent of the Guard's CDU items to ensure their 
preparedness to support their civil support missions. To that end, the 
CDU EOH will increase from 83 percent in 2009 to 87 percent in 2011. 
The Army National Guard has determined that it currently has sufficient 
equipment to meet this hurricane season's support requirements.
    Mr. Miller. What is the status of the payback plans the Army is 
required to provide the National Guard and Reserve components? If the 
Army has not provided payback plans, what do the units who left the 
equipment overseas use for training?
    Secretary McHugh and General Casey. The Army has made significant 
progress in replacing Reserve Component (RC) equipment diverted to 
wartime needs. Currently, the Army has returned a total of 67 percent 
(57,000 of the 84,000) of the Secretary of Defense approved Department 
of Defense Directive (DoDD) 1225.6 requirements to the RCs. For the 
remaining DoDD 1225.6 requirements, Headquarters, Department of the 
Army and the RCs have developed plans that project the payback of all 
the equipment by the end of fiscal year 2013, based on known 
operational requirements. If operational requirements change, the Army, 
in coordination with the RCs, will adjust the payback plans to support 
both theater and homeland defense requirements and missions. All Army 
units, to include the RCs, are cross-leveling available equipment and 
utilizing pre-deployment equipment sets to mitigate training equipment 
shortfalls until the cessation of all hostilities and full reset of 
theater equipment is accomplished.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WILSON

    Mr. Wilson. The past eight years have highlighted the unique way in 
which the National Guard and Army Reserve forces can augment the active 
force, especially in unique skill sets. However, due to their 
commitment to the overseas fight, the historical role of the National 
Guard as the Nation's strategic reserve has waned. In the QDR, the 
first of the six key mission areas is ``Defend the United States and 
support civilian authorities at home.'' Does the Army plan on 
supporting this notion and returning the Guard to its historical role? 
And, if so, how will training and equipment in both the short and long 
term change to reflect the need to focus on the domestic defense?
    Secretary McHugh. The National Guard's historic role of defending 
the homeland remains the same as it always has--the Army National Guard 
responds to a domestic crisis when called by their Governors while 
preparing to augment the Army for overseas contingencies. No better 
example of this enduring capability exists than the National Guard's 
response to Hurricanes Katrina and Rita, when Guardsmen from every 
State and Territory--and their equipment--flowed into the Gulf States 
when much of the affected States' own Army National Guard was deployed 
overseas. The Army National Guard had approximately 100K Soldiers 
mobilized and still provided 50,000 Soldiers to support hurricane 
relief efforts.
    Since 9/11, the National Guard's ability to respond quickly to 
domestic contingencies is better understood and appreciated at the 
national level. Most of the Army National Guard's force structure is 
designed to augment the Active Component, and its equipment and 
training requirements follow suit. But when budget constraints force 
hard acquisition decisions, the National Guard's unique role in support 
of civilian authority is now better accounted for in terms of its 
Critical Dual Use equipment, which supports the Essential Ten 
Capabilities that the governors have decided are critical during a 
domestic contingency. In addition, Guard unique capabilities, such as 
the Civil Support Teams, have been resourced at a higher level since 9/
11.
    The Army National Guard is actually better able to respond to 
domestic emergencies than it was prior to 9/11. It has more modern 
equipment, its unit strengths are at higher levels, and its Soldiers 
are better trained. Furthermore, the National Guard has been proactive 
in improving its ability to respond to homeland missions. For example, 
Emergency Management Assistance Compacts have been strengthened in 
order to facilitate units in one State assisting another State during a 
crisis.
    Mr. Wilson. I am concerned that the current plans for wounded 
warrior support at the new Walter Reed National Military Medical Center 
when it opens at Bethesda in September 2011 is not at the same level of 
support currently furnished by the Army at Walter Reed Army Medical 
Center. Wounded Warriors who move to the new medical center will 
experience a significant degradation of services and support. This is 
unacceptable. As an example, I understand that there will be a 
shortfall of 150 barracks spaces when the new medical center opens for 
the wounded warriors who are currently in the Warrior in Transition 
barracks at Walter Reed. What steps have you taken to ensure that all 
of the wounded warrior support now provided at Walter Reed will be 
available when the new medical center opens in September 2011?
    Secretary McHugh. The Army, along with the other Services, has 
taken multiple steps to prepare for the support of the Wounded, Ill and 
Injured Soldiers as they transfer from Walter Reed Army Medical Center 
to the Walter Reed National Military Medical Center at Bethesda. 
Approximately half of the Wounded Warriors assigned to Walter Reed Army 
Medical Center will move to Fort Belvoir in September 2011. Accordingly 
we are focused on delivering proper services and support to Wounded 
Warriors both at Bethesda and Fort Belvoir.
    New Warrior Transition Complexes are being built at Bethesda and 
Fort Belvoir with estimated completion dates in August 2011 for both 
locations. These Warrior Transition Complexes include all the services 
and support found in Army Soldier Family Assistance Centers, 
administrative space for the Warrior Transition Unit cadre, and 
barracks for Wounded Warriors. The Warrior Transition Complexes will 
provide non-medical case management and support assistance for each 
Services' Wounded Warriors and their Families. These activities will be 
consistent with what is currently provided at Walter Reed Army Medical 
Center.
    We share your concerns regarding lodging facilities at Bethesda. We 
are comfortable with the planned lodging facilities for single Wounded 
Warriors. At this point in the planning, there will not be a shortage 
of rooms for these Soldiers. Our primary concern, however, is lodging 
for Wounded Warriors with Families. Naval Support Activity Bethesda 
(NSA Bethesda) conducted a lodging analysis and concluded that Bethesda 
currently has sufficient rooms to accommodate the entire Wounded 
Warrior population and their Families. Nevertheless, the Army, has 
requested that further detailed analysis be done between NSA Bethesda 
and the Army to validate that the lodging facilities will meet the 
specific needs of Army Wounded Warriors and their Families.
    Mr. Wilson. In the past, you've said that the Army's readiness 
posture is ``out of balance,'' due to demands placed on it by the 
operational tempo of the current wars, and that the Army is not ready 
today to meet other large-scale ground combat contingencies as fast as 
various plans require. You've also said that the Marine Corps, Navy and 
Air Force can provide contingency forces to mitigate the late arrival 
of Army forces in some of these scenarios. However, given the declining 
state of readiness of all services, are you still confident in that 
assessment? How much risk is the nation assuming by having the Army 
essentially 100% committed to the current wars? When will this 
situation begin to improve?
    General Casey. The Army is providing forces needed to prevail in 
the current fight, and we are increasing forces in Afghanistan as we 
responsibly draw down in Iraq. Thanks to the support of Congress and 
the American people, the Army is receiving adequate resources to 
restore readiness; however, the pace of operations is requiring the 
Army to consume readiness as fast as we produce it. In committing the 
Army to Iraq and Afghanistan, the Nation has limited choices if another 
crisis--whether humanitarian or conflict--arises. Additionally, at 
today's high operational tempo, the Army cannot train all units for the 
Full Spectrum of Operations, which reduces trained and ready Army 
forces that we have available for the variety of other possible 
missions in a world of persistent conflict.
    Under the projected levels of demand, we will continue making 
progress in restoring balance, and plan to reach a sustainable and 
predictable force rotational cycle in 2012--two years at home station 
for every year deployed for our Active Component and four years at home 
station for every year mobilized for our Reserve Component. We expect a 
few challenging years of recapitalizing and repairing equipment, re-
integrating our Families and training forces for Full Spectrum 
Operations, before we can provide robust strategic flexibility to our 
leaders.
    With Congress' continued support, the Army will restore its balance 
during these challenging years by achieving sustainable deploy-to-dwell 
ratios; adequately providing for Soldiers, Civilians and Families; and 
resetting our equipment and pre-positioned stocks. Together, these 
measures will restore Army readiness and strategic flexibility to our 
Nation's leaders.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. My understanding is that 63 percent of the Army 
National Guard's (ARNG) HMMWV fleet will be over 20 years old by FY11. 
In fact, over 60 percent of the Ohio National Guard's HMMWV inventory 
are the original A0 model HMMWV and are between 20 to 25 years old. 
These older models are not as capable as current production vehicles. 
Specifically, they have significantly less payload, cannot be armored 
(which hinders the Guard's ability to train on them before being 
deployed overseas), and do not have the capability to mount critical 
systems needed to perform increased multi-mission requirements filled 
by the HMMWV. As you are aware, the National Guard's military training, 
homeland security, and state emergency missions rely on the I-IMMWV. 
Despite this critical role, the FY 11 budget request does not include 
any funding for the Army to procure new HMMWVs. With this in mind, I 
would like to know how does Army plan to ensure the National Guard has 
the modern equipment it needs, including current HMMWVs, to 
successfully carry out its many critical missions?
    Secretary McHugh and General Casey. The Army National Guard (ARNG) 
currently has an excess of vehicles in its High Mobility Multi-purpose 
Wheeled Vehicle (HMMWV) Fleet. This allows us to divest older models 
using Fiscal Year 2010 (FY10) procurement and recapitalization (RECAP) 
funds, and thereby lower the percent of older ARNG vehicles to 43 
percent by second quarter FY11. We will further lower this figure to 30 
percent through the Program Objective Memorandum. Over the course of 
the war, the ARNG has conducted excellent pre-deployment training at 
mobilization sites using equipment provided in pre-deployment training 
sets. These sets include the most modern equipment available. The 
Army's strategy is to ensure modernization levels are compatible with 
mission roles across all components: active, guard and reserve. To 
ensure HMMWV modernization, the Army will continue the RECAP program, 
ultimately improving the capability of the existing fleet without an 
increase in the HMMWV inventory.
    Mr. Turner. The QDR specifically identified `building partnership 
capacity' as one of the top three areas of operational risk. We have 
observed important lessons in Afghanistan over the last many years and 
recently have made strides to stress the importance of cultural 
awareness, force cooperation, and integrated multi-national training 
and exercises. One specific example, in which this concept has 
manifested itself organizationally pragmatic execution, is through the 
implementation of Advise and Assist Brigades (AABS). What steps should 
the Army take in terms of institutionalizing, educating, and training 
soldiers for building partnership capacity beyond our current efforts 
in Afghanistan?
    Secretary McHugh and General Casey. The Army is taking steps to 
institutionalize our ability to build partnership capacity.
    In general, the Army continues to refine our doctrine to emphasize 
that all operations are conducted with the ultimate objective of 
transitioning to a stable environment. We are developing standard lists 
of Mission Essential Tasks that require various types of Army units to 
include ``stability operations'' when preparing for any mission. 
Beginning in FY12, we will adjust model training strategies to ensure 
unit training resources include ``stability operations.''
    We also plan to align certain units with specific geographic 
combatant commands, which will enable these units to develop some 
degree of regional expertise and facilitate combatant commanders' 
ability to build coalitions through targeted exercise and engagement 
programs. In support of these efforts the Army recently approved a 
Culture and Foreign Language Strategy, which provides a holistic 
approach to building and sustaining the right blend of language and 
cultural skills.
    The Army is also working to institutionalize training for units 
given specific responsibilities for building partnership capacity (i.e. 
a Brigade Combat Team asked to advise and assist the security forces of 
another nation). The Army has established the 162nd Training Brigade, 
which is co-located with the Joint Readiness Training Center at Fort 
Polk, Louisiana, as an enduring capability to train personnel to 
augment Army brigades, and to train other U.S. Army specialized teams 
(e.g. training teams for military police, engineers, medical, etc.) to 
mentor the functional staff of another nation's Army. Trainers from the 
162nd will also facilitate a unit/team integration into the operations 
of deploying Army formations primarily through support of mission 
rehearsal exercises at Army Combat Training Centers.
    Finally, Army future efforts at building partnership capacity will 
be significantly enhanced by the recent appointment of Commander, 
Combined Arms Center, Fort Leavenworth, Kansas as the Army's proponent 
for security force assistance, as well as for stability operations.
    Mr. Turner. Regarding BMD, please provide detailed plans, 
logistical footprint, and associated timelines for deploying the 
planned Patriot battery in Poland.
    Secretary McHugh and General Casey. The Government of Poland 
recently ratified the Supplemental Status of Forces Agreement which 
triggered a POTUS-directed suspense to begin regular Patriot unit 
training rotations to Poland. The Joint Staff Planning Order released 
16 FEB 10, established the Patriot to Poland Phase I requirements to 
conduct training and exercises with the Polish Air Defense Forces and 
U.S. European Command is preparing to begin regular training rotations. 
The logistic footprint for the training will be the organic unit field 
requirements and will expand to include a small contingency site in a 
subsequent phase. United States Army Europe is now refining the 
training rotation plan which is due by the end of May 2010. Planning 
will include an analysis regarding Phase II site location and 
requirements in accordance with the Declaration on Strategic 
Cooperation between the United States of America and the Republic of 
Poland.
                                 ______
                                 
              QUESTIONS SUBMITTED BY MRS. MCMORRIS RODGERS

    Mrs. McMorris Rodgers. The Quadrennial Defense Review directs our 
nation's Armed Forces to be capable of conducting a wide range of 
operations including homeland defense, defense assistance to civil 
authorities and major stabilization operations. As an operational 
force, National Guard Heavy Brigade Combat Teams continue to leave 
their armored vehicles at home while they deploy overseas to conduct 
stability operations. Would the Department of Defense consider 
converting a second National Guard Heavy Brigade Combat Team into a 
Stryker Brigade Combat Team so that they can deploy and fight with the 
same equipment that they train on, as well as being much better 
equipped to conduct domestic missions? If so, would the Department of 
Defense consider converting the 81st Heavy Brigade Combat Team of the 
Washington Army National Guard that is collocated with the Army's 
Stryker Center of Excellence at Joint Base Lewis McChord?
    General Casey. The Department of Defense has considered the Army 
National Guard request to convert a second Heavy Brigade Combat Team 
(HBCT) to a Stryker Brigade Combat Team (SBCT). However, the Army has 
no plans to execute a conversion at this time. The number of future 
Brigade Combat Team conversions was considered in the Quadrennial 
Defense Review and will continue to be assessed. The management of both 
the designs and the total mix of the Army Brigade Combat Teams is a 
continuous process.
    If the Department of Defense justifies the requirement to convert 
additional HBCT to SBCT within the Army National Guard, the unit and 
location(s) would be determined and staffed by the Army National Guard.
    Mrs. McMorris Rodgers. Wouldn't you agree that spouses relying on 
the Military Spouse Career Advancement Account (MyCAA) program to 
further their academic goals should have been notified prior to the 
temporary stay in order to make the necessary arrangements with their 
school.
    General Casey. The Army agrees that providing as much notice as 
possible when making program changes is always preferable. On March 13, 
2010, DOD resumed MyCAA operations for military spouses who currently 
have existing MyCAA accounts. As the Army works with DOD on the way 
ahead for MyCAA policy/program management, Military OneSource Spouse 
Education and Career Consultants will continue to be available to 
provide education and training, career exploration, assessment, 
employment readiness and career search assistance.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. ELLSWORTH

    Mr. Ellsworth. Secretary McHugh and General Casey, last year, 
Congress supported the Army's request and provided $1.3 billion for the 
Army to procure new Humvees in Fiscal Year 2010. What is the status of 
those funds and what are the Army's plans to put the Fiscal Year 2010 
funds on order?
    Secretary McHugh and General Casey. The Army is planning to procure 
2,122 HMMWVs in FY10 using FY 2010 Base and OCO funding. The FY 2010 
base budget ($281M) will procure 1,410 HMMWVs to support systems that 
use the HMMWV as their prime mover, commonly referred to as ``data 
interchange'' vehicles. The FY10 OCO funding ($150M) procures 712 
HMMWVs for U.S. Army Special Operations Command. The Army plans to seek 
reprogramming approval for the remaining FY 2010 OCO procurement 
funding for recapitalization of HMMWVs returning from theater and other 
Army priorities.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. GIFFORDS

    Ms. Giffords. Thank you, Mr. Chairman and thank you to Secretary 
McHugh and General Casey for being here today. As you know, Fort 
Huachuca in my District is the home of Army Intelligence. Since 9/11, 
the Fort has grown exponentially and now hosts around 15,000 
servicemembers, civilians and contractors. Each year, thousands of 
servicemembers and operatives from the other intelligence agencies come 
to Southern Arizona to learn their tradecraft. Over the last year, we 
have begun to adjust mission sets at the Fort to concentrate our 
precious resources on training intelligence warfighters and relocating 
other non-core functions to other facilities where they are needed 
more. In doing so, we have relocated the final acceptance mission of 
Unmanned Vehicles to Mr. Bishop's district in Utah and next year we 
will prepare the 86th Signal Battalion to relocate to Mr. Reyes's 
district in Texas. There have been rumors circulating that additional 
elements will be relocating to Mr. Smith's District up in Washington. I 
know that we have talked quite a bit about this over the last few weeks 
but I want to be sure that we're on the same page.
    Do you anticipate relocating the other pieces of that unit--the 
40th Signal Battalion and the 11th Signal Headquarters--in the near 
future?
    Secretary McHugh and General Casey. The Army currently has no 
programmed moves for the 11th Signal Brigade or 40th Signal Battalion.
    Ms. Giffords. I met earlier this week with a team of trainers we 
have on-post at Fort Huachuca and they specialize in teaching the 
Border Patrol and other State and local law enforcement agencies how to 
think and work like intelligence officers. Right now they are funded 
through a combination of programs but ultimately through NORTHCOM and 
JTF-NORTH. I have heard interest expressed by both the Homeland 
Security side and the Army side, but right now the program is ad hoc. 
Would you be willing to work with me on establishing a regular funding 
stream for this program?
    Secretary McHugh and General Casey. Combatant Commander's and 
Homeland Security Department's specific operational intelligence 
mission training requirements vary from year to year. Placing a 
specific funding line into the Army's base appropriation locks the Army 
into providing training that may no longer be required by the Combatant 
Commander or Homeland Security. Keeping the training reimbursable 
provides the Army and the requesting agency with the flexibility needed 
to meet current operational requirements. The Army appreciates your 
interest in this training, but believes that the training should remain 
reimbursable and not be included in the Army's base funding.
    Ms. Giffords. The Army's Culture Center is also located just off-
post in Sierra Vista. They are the foremost cultural experts in the 
Department. I know that both Chairman Smith and I have received 
extensive briefings from them in the past before one of our trips into 
some hostile areas in Africa and the Middle East. They really are doing 
some excellent work down there. Given the importance of culture and 
cultural awareness in the wars we are currently fighting and the ones 
we will fight in the future, and the unique capabilities provided by 
the Culture Center, does the Army plan to formally make it a Center of 
Excellence? If not, why not?
    Secretary McHugh and General Casey. Training & Doctrine Command 
(TRADOC) conducted a thorough analysis to determine what should 
constitute a TRADOC ``center'' versus a ``center of excellence.'' The 
specific functions of the TRADOC Culture Center (TCC), which include 
assistance in developing culture capabilities to support current and 
future operations as well as concept development and experimentation, 
fall within the definition of a ``center.'' Although the TCC provides 
unique capabilities, it is a subordinate element of the U.S. Army 
Intelligence Center of Excellence (USAICoE) and the Army does not plan 
to designate the TCC a center of excellence (CoE).
    Ms. Giffords. The Fort is also home to the Army's Network Command 
and oversees the security and integrity of the Army's U.S.-based 
computer networks. Can you comment on how you see their role growing as 
the Army and the Department grows their cyber defense capabilities?
    Secretary McHugh and General Casey. In a memo dated 23 June 2009, 
the Secretary of Defense stated that cyberspace and its associated 
technologies offer unprecedented opportunities for the United States, 
and are vital to our Nation's security and, by extension, to all 
aspects of military operations. Yet, our increasing dependency on 
cyberspace, alongside a growing array of cyber threats and 
vulnerabilities, adds a new element of risk to our national security. 
The Secretary therefore approved establishment of U.S. Cyber Command 
(CYBERCOM), a Department of Defense sub-unified command under U.S. 
Strategic Command, to integrate DoD's cyberspace operations into a 
single entity.
    To support CYBERCOM and to provide the unique capabilities that 
Army operations require, the Army will stand up a three-star command, 
Army Forces Cyber Command (ARFORCYBER). ARFORCYBER will create 
unprecedented unity of effort and will synchronize all Army forces 
operating within the cyber domain. ARFORCYBER will focus on planning, 
coordinating, integrating, synchronizing, directing and conducting 
network operations and defense of all Army networks to ensure that U.S. 
and Allied forces have freedom of action in cyberspace.
    ARFORCYBER will capitalize on existing Army cyber resources. 
Network Enterprise Technology Command/9th Signal Command, Army (9th 
SC(A)) and its global forces will be assigned as a subordinate unit to 
ARFORCYBER. The Commanding General, 9th SC(A) will serve as the 
ARFORCYBER Deputy Commanding General for cyber operations. A combined 
Army Cyber Operations Integration Center (ACOIC) also will exist 
underneath ARFORCYBER. The majority of forces for ACOIC are already in 
place at Fort Belvoir, Virginia, to include elements of the 9th SC(A) 
Army Global Network Operations and Security Center. Additionally, U.S. 
Army Intelligence and Security Command will be under the operational 
control of ARFORCYBER for attack and exploit-related actions.
    The 9th SC(A) and its global forces provide a wide range of network 
and cyber capabilities necessary to execute ARFORCYBER's missions, and 
are charged with establishing, provisioning, sustaining and defending 
the Army's portion of the Global Information Grid, LandWarNet (LWN). 
LWN, which is critical to 21st century operations, provides secure and 
assured information access across joint strategic, operational and 
tactical echelons, thereby enabling warfighter decision dominance.
    Ms. Giffords. You recently announced a significant shift in base 
support funding to take care of Army families. Can you talk a little 
about this effort and touch on the specifics of which programs are in 
the greatest need for additional funds and are high demand services?
    Secretary McHugh and General Casey. We thank the Congress for its 
steadfast and continued support of our Soldier and Family programs. The 
programs we are executing in fiscal year 2010, and our request for 
fiscal year 2011, are funded to ensure our Soldiers and Families 
continue to enjoy the full spectrum of services they so richly deserve. 
Army Spouse Employment, New Parent Support, Exceptional Family Member 
services, expanded child care and youth services are examples of these 
valuable, high-demand programs.
    The Installation Management Command will continue to work closely 
with each installation to ensure its essential Base Operating Support 
(BOS) needs are met. We will conduct a comprehensive mid-year review of 
all BOS accounts to ensure we maintain adequate funding to meet Army 
priorities throughout the remainder of the fiscal year. We will look 
for efficiencies and best practices in the use of BOS funds, but will 
not shortchange Soldiers and their Families in the process.
    The health and welfare of our Soldiers and Families is tremendously 
important, and we recognize the incredible sacrifices they make every 
day. As a result, and under the Army Family Covenant, we have taken 
great strides by standing up and bolstering numerous programs to 
provide Soldiers and Families a quality of life commensurate with their 
level of service and sacrifice to the nation. Not only do these 
programs ease the stress of everyday military life, they also enhance 
readiness, recruiting, and retention. Our programs support all 
Soldiers--single and married, Active and Reserve Component, 
geographically dispersed and those on or near installations--and their 
Families.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. TSONGAS

    Ms. Tsongas. The FY2010 NDAA (Sec. 141 and Sec. 216) directed that 
within each military service, a separate, dedicated budget line item 
for body armor procurement would be established in the FY2011 Budget 
submission. It also articulated the same requirement for a separate, 
dedicated program element for RDT&E. Mr. Secretary, understanding that 
none of the military services make the final decision on what is or is 
not included in the budget request, please explain why the Army does 
not have a separate account for procurement and RDT&E of body armor? 
Did you include the separate accounts in the budget request that you 
submitted to the Secretary of Defense?
    Secretary McHugh. The Army did not create separate body armor 
funding lines in RDT&E and procurement in the FY2011 Budget because we 
were awaiting guidance from the Office of the Secretary of Defense 
(OSD) on how to implement the FY2010 NDAA language. Previously, body 
armor has been an expendable and not an investment item, and therefore 
purchased with Operation and Maintenance, Army funding. The Army is 
exploring options with OSD for subsequent fiscal years and will 
implement in accordance with OSD guidance.
    Ms. Tsongas. Military officials have testified that the Army has a 
requirement to lighten the load carried by soldiers particularly during 
dismounted operations in Afghanistan. I understand that despite this 
stated requirement, that none of the military services are actively 
soliciting for lighter weight body armor enhanced small arms protective 
inserts. The FY11 OCO budget request included $327.0 million for body 
armor. Body armor requirements have been funded primarily through OCO 
supplemental appropriations with no long term investment strategy. 
Unfortunately, it remains unclear whether there has been a 
comprehensive effort from Department of the Army to accelerate and 
properly resource weight reduction initiatives to body armor. There is 
no evidence in the budget documents that the Department of Defense or 
any of the Services have a research and development program to reduce 
the weight of body armor. Please describe what steps you have taken to 
ensure that there is a robust R&D program to develop lighter body armor 
products? Please explain how you coordinated your efforts with the 
ongoing efforts of the other services? What are your thoughts in 
establishing a body armor task force similar to the MRAP Task Force and 
the TSR Task Force to accelerate these efforts?
    Secretary McHugh. Body Armor is not a Program of Record and is 
therefore 100% funded with Overseas Contingency Operations funds with 
no RDT&E dedicated funding line. The 2010 NDAA directed that each of 
the services establish a RDT&E line for Body Armor, which the Army is 
currently working with DoD to establish.
    To coordinate on-going Body Armor initiatives, the Army 
participates in the Cross-Service War fighter Equipment Board (CS-WEB). 
This group includes representatives from the Military Departments (U.S. 
Army, Navy, and Air Force Research Laboratories, and Office of Naval 
Research); U.S. Special Operations Command; Defense Logistics Agency; 
the Department of Homeland Security; and the U.S. Coast Guard Clothing 
Design and Technical Office. The coordinating agency for the CS-WEB is 
Natick Soldier Research, Development and Engineering Center and the 
U.S. Army Research, Development and Engineering Command.
    The CS-WEB functions as a collaborative body to coordinate Joint 
war fighter equipment investments to ensure the most effective 
solutions are acquired and fielded to war fighters by the Army, Navy, 
Marine Corps, Air Force, Coast Guard and Special Operations Command. 
The CS-WEB provides a forum that encourages a dialogue on all aspects 
of full systems life cycle acquisition management to include: science 
and technology plans; technology transition planning; system design and 
development; initial production; procurement strategies; raw ballistic 
fiber/material usage forecasts and shortage issues; ballistic testing 
protocols/issues; production rates; and operational support concepts.
    We do not think a Task Force is required to address the issue of 
lighter Body Armor. The CS-WEB and the Army and the Marine Corps Board, 
which meet quarterly, focuses on force protection issues, to include 
initiatives for lighter Body Armor Systems.
    Ms. Tsongas. The MEADS program was initiated to provide replacement 
for the Patriot Air and Missile System in the U.S. Army, as well as 
Patriot, Nike Hercules and Hawk in Germany and Italy. However, the 
MEADS development program has not delivered on promised timely and 
cost-effective fielding of new air and missile defense capabilities. 
Since the program's initiation, the time to field the First Unit 
Equipped (FUE) has repeatedly been revised resulting in increased costs 
and delays to fielding warfighter capability as follows:

    <bullet>  In 1996, the expected RDTE cost was $2B to $3 B, with a 
planned FUE in 2008

    <bullet>  In 2002, the expected RDTE cost was $7B to $9B, with a 
planned FUE in 2012

    <bullet>  In 2008, the expected RDTE cost was $10B, with a planned 
FUE in 2015

    In 2008, the GAO reported that the FUE date will slip an additional 
two years, to 2017. In addition, recent GAO reports (GAO-08-467SP & 
GAO-Q9-326SP Assessments of Major Weapon Programs) found that only two 
of six critical MEADS technologies were maturing at an adequate pace to 
meet program schedule. Based on the performance of the MEADS program to 
date, OSD commissioned reviews of the program to understand what is 
driving MEADS over budget and behind schedule.
    Two OSD studies, one conducted by the Hon. John Young (former USD 
AT&L) and one conducted by Hon. Paul Schneider (Chertoff Group 
consultant and former DHS Deputy Secretary), were both critical of 
NAMEADSMA and the U.S. Army management and oversight of MEADS. What 
changes to management's procedure and structure have been implemented? 
What objective criteria will be used to determine whether MEADS 
successfully completes the system-level CDR? Will affordability, risk 
and performance figure prominently in deciding whether to continue or 
to terminate the program?
    Secretary McHugh. The Army assumed responsibility for MEADS late in 
Fiscal Year 2003. During the Preliminary Design Reviews in 2007, 
significant concerns arose about the program's progress, management and 
risk. These concerns led to two independent reviews on the health of 
the program and a path forward. The assessments validated that change 
was necessary.
    Since the conclusion of the reviews, the Army has been working with 
the OSD (AT&L) to negotiate with international partners to substitute 
an exportable version of the Integrated Air and Missile Defense Battle 
Command System (IBCS) for the MEADs battle manager, and also a change 
in the management governance Memorandum of Understanding with the NATO 
Medium Extended Air Defense System Management Agency (NAMEADSMA) 
partners. This approach would meet the current System requirements and 
achieve an improved governance structure.
    Some changes have already been implemented. The Joint Steering 
Committee has been replaced by a Board of Directors, which now focuses 
on strategic program direction and execution oversight. The NAMEADSMA 
General Manager has been provided the necessary authority for effective 
day to day program management and execution.
    The Department is in the process of conducting a detailed multi-
faceted assessment to support the fall System Program Review. The OSD 
Cost Assessment and Program Evaluation team is reviewing program costs 
and preparing a new cost estimate. Both the Army and OSD are jointly 
conducting an independent external Critical Design Review (CDR) 
assessment. It will review multiple aspects of the CDR such as 
percentages of drawings completed, software coding status, and 
integration and test progress.
    The Army and OSD are reviewing requirements and threats to ensure 
the MEADS program is delivering a needed capability. The assessments 
will provide the Department leadership with detailed information to 
support program decisions.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
